No. ______________

In the

Supreme Court of the United States
____________

MUSHKIN, INC.
Petitioner,
v.

ANZA TECHNOLOGY, INC.
____________

Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
____________
PETITION FOR WRIT OF CERTIORARI
_____________
D. SCOTT HEMINGWAY
Hemingway & Hansen
1700 Pacific Ave., Ste. 4800
Dallas, Texas 75201
Telephone: (214) 292-8301

THOMAS S. RICE
Senter Goldfarb & Rice
3900 E. Mexico Ave.
Suite 700
Denver, CO 80210
Telephone: (303) 320-0509

Attorneys for Petitioner

i
QUESTIONS PRESENTED
Fed. R. Civ. P. 15(c)(1)(B) states that an
amended pleading will “relate back” to the date of an
original pleading if the amended pleading “asserts a
claim or defense that arose out of the conduct,
transaction or occurrence set out – or attempted to be
set out – in the original pleading.”
This Petition should be granted to address the
following questions:
1.
Whether the appropriate standard of review
for a “relation back” determination under Fed. R. Civ.
P. 15(c) is: (1) the de novo standard of review applied
by the First, Second, Third, Fourth, Fifth, Sixth,
Seventh, Ninth and Tenth Circuit Courts of Appeal,
(2) the abuse of discretion standard of review applied
by the Eighth, Eleventh, and District of Columbia
Circuit Court of Appeals, with Eighth and Eleventh
Circuits applying a clear error standard of review for
factual findings, (3) the de novo standard of review
applied by the Federal Circuit Court of Appeals in
the present case, with fact findings reviewed for clear
error, or, (4) the clear error standard of review
supported by this Court’s recent precedent, U.S.
Bank v. Village at Lakeridge, for appellate review of
case-specific factual determinations made by a
district court?
2.
What is the proper test for a “relation back”
determination under Fed. R. Civ. P. 15(c)(1)(B) in
light of the 1991 and 1993 Amendment to Rule 15(c),
which eliminated the notice requirements from the

ii
“conduct, transaction, or occurrence” provision of Fed.
R. Civ. P. 15(c)?
3.
Whether the court of appeals in the present
case erred in its “relation back” analysis under Fed.
R. Civ. P. 15(c)(1)(B) by establishing, and relying on,
a “liberal notice-based” interpretation of the “conduct,
transaction, or occurrence” provision of Fed. R. Civ.
P. 15(c)(1)(B)?
4.
Whether claims withdrawn from the scope of
the original proceedings can be re-asserted later in
an amended pleading using the “relation back”
doctrine under Fed. R. Civ. P. 15(c)(1)(B) in the
absence of a retraction of that withdrawn position?

iii
PARTIES TO THE PROCEEDINGS
(Rule 14(b)(i))
A list of all parties to the proceedings in the
court whose judgment is the subject of this Petition is
as follows:
Defendant-Petitioner:
Mushkin, Inc. d/b/a
Enhanced Network Systems, Inc. Mushkin, Inc.
Plaintiff-Respondent:
Anza Technology, Inc.

Anza Technology, Inc.

CORPORATE DISCLOSURE STATEMENT
(Rule 14(b)(ii))
Pursuant to this Court’s Rule 29.6, Petitioner
Mushkin Inc. states that it has no parent corporation
and that no publicly held company owns 10% or more
of its stock.

RELATED PROCEEDINGS
(Rule 14(b)(iii))
As set forth in this Court’s Rule 14(b)(iii), there
are no proceedings in state, federal trial or appellate
courts, including proceedings in this Court, that are
directly related to the case in this Court.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ……………………………i
PARTIES TO THE PROCEEDINGS ………………..iii
CORPORATE DISCLOSURE STATEMENT.…….. iii
RELATED PROCEEDINGS…………………………..iii
TABLE OF CONTENTS …………………………....... iv
TABLE OF AUTHORITIES ………………………......xi
OPINIONS BELOW …………………………………….1
JURISDICTION …………………………………….......1
CONSTITUTIONAL AND STATUTORY
PROVISIONS .…………..……………………………….2
STATEMENT OF THE CASE…………………….......3

v
TABLE OF CONTENTS, Continued
REASONS FOR GRANTING THE
PETITION ………………………………………….…….5
I.

CERTIORARI SHOULD BE GRANTED
TO RESOLVE A SPLIT AMONG THE
CIRCUITS REGARDING THE CORRECT
STANDARD OF REVIEW FOR
“RELATION BACK” DETERMINATIONS
UNDER FED. R. CIV. P. 15(C), WHICH IS
AN IMPORTANT FEDERAL QUESTION
TOUCHING ON MANY DIFFERENT
CASES……………………………………….…...5
A. This Case Presents An Ideal Vehicle
To Resolve The Various Circuit
Splits For The Proper Standard Of
Review for “Relation Back”
Determinations…………………………….……5
1. The First, Second, Third, Fourth,
Fifth, Sixth, Seventh, Ninth and Tenth
Circuit Courts of Appeal apply
a de novo standard of review
to “relation back” determinations...….…..6

vi
TABLE OF CONTENTS, Continued
2. The Second Circuit Court of
Appeals previously applied the
abuse of discretion standard of
review to “relation back”
determinations before overruling
its own precedent in favor of
a de novo standard of
review……………………….…………….….8
3. The Eighth, Eleventh and the District
of Columbia Circuit Courts of Appeal
apply the abuse of discretion standard
with Eighth and Eleventh Circuits
applying a clear error standard of
review for factual findings.………………..9
4. The Federal Circuit Court of
Appeals, in the present case,
applies a de novo standard of
review, and reviews factual
findings for clear error……………………10
B. This Court Recently Decided the Clear
Error Standard of Review Is the Most
Appropriate Standard of Review for CaseSpecific Factual Determinations, as set
forth in the U.S. Bank v. Village at
Lakeridge Decision........…………………….…11

vii
TABLE OF CONTENTS, Continued
C. This Case Presents an Important
Federal Question that Needs To Be
Resolved by this Court Because the
“Relation Back” Determination Has
A Significant Impact on Many
Different Types of Cases………..………….….16
II.

A “LIBERAL NOTICE-BASED” TEST
DOES NOT COMPORT WITH THE
ELIMINATION OF THE NOTICE
REQUIREMENTS IN THE “CONDUCT,
TRANSACTION, OR OCCURRENCE”
LANGUAGE IN FED. R. CIV. P.
15(C)(1)(B) PER THE 1991
AND 1993 AMENDMENTS TO
RULE 15(C)….………………………………...19
A. This Court’s Schaivone Decision
Required Notice, and the Other
Factors of Rule 15(c), To Be Present
Simultaneously For “Relation
Back” to Be Found.....…………….………22
B. The 1991 and 1993 Amendments
Removed the Notice Requirements
From the “Conduct, Transaction or
Occurrence” Language of Fed. R. Civ.
P. 15(c) To Change the Result of
Schaivone……..……………………………24

viii
TABLE OF CONTENTS, Continued
C. The Federal Circuit’s Decision in
the Present Case Attempts to
Add a Notice Requirement Back
Into the “Conduct, Transaction or
Occurrence” Language of
Fed. R. Civ. P. 15(c)(1)….…..…………….27
III.

A “RELATION BACK” TEST BASED
ON THE PLAIN TEXT OF FED. R.
CIV. P. 15(c)(1)(B) WOULD
AVOID PROBLEMS INHERENT
IN THE FEDERAL CIRCUIT’S
“LIBERAL NOTICE-BASED” TEST…….…30
A. Appeals Court’s Improper Focus on a
Broad Description of Underlying
General Background Technology……….31
B. The Appeals Court Failed to Properly
Weigh the Impact of the Infringement
Contentions Signed and Served by
Plaintiff in The Original Proceedings….33
C. As Discussed in the Federal Circuit’s
Opinion, It is Improbable That Newly
Added Products Asserted Under
Different Patents Would Have a
Common Core of Operative Facts………35

ix
TABLE OF CONTENTS, Continued
D. A Plain Reading of Fed. R. Civ. P.
15(c)(1)(B) Should Be Applied to
“Relation Back” Determinations ………36
CONCLUSION ….………………………………….….37

x
TABLE OF CONTENTS, Continued

APPENDIX – Opinions Below
Order and Opinion of the United States
Court of Appeals For The Federal Circuit,
Dated and Decided August 16, 2019…………………1a
Order and Opinion of the United States
District Court For The District of Colorado,
Dated and Decided August 28, 2018……………….28a

xi
TABLE OF AUTHORITIES
Page
Cases:
Collezione Europa U.S.A., Inc.
v. Amini Innovation Corp.,
2009 WL 2634648 (D. N.J. Aug. 26, 2009)….......18-19
Delgado-Brunet v. Clark,
93 F.3d 339 (7th Cir. 1996)…………………….......7, 17
Glover v. FDIC,
698 F.3d 139 (3d Cir. 2012)…………………….......6, 17
Jacobsen v. Osburne,
133 F. 3d 315 (5th Cir. 1998)..……….......16, 17, 22-23
KBHS Broad Co. v.
Sanders (In re Bozeman),
226 B.R. 627 (B.A.P. 8th Cir. 1998)……………….......9
Lundy v. Adamar of N.J., Inc.,
34 F.3d 1173 (3d Cir. 1994)…………………….......7, 10
Mayle v. Felix,
545 U.S. 644 (2005)..……………………………….......37
Miller v. Am. Heavy Lift
Shipping, 231 F.3d 242 (6th Cir. 2000)….......7, 10, 17
Moore v. Long,
924 F.2d 586 (5th Cir. 1991)...…………………….......23

xii
Nettis v. Levitt,
241 F.3d 186 (2d Cir. 2001)…………………….......8, 18
Percy v. S.F. Gen. Hosp.,
841 F.2d 975 (9th Cir. 1988)…………..............7, 10, 17
Powers v. Graff,
148 F.3d 1223 (11th Cir. 1998)..……………….......9, 18
Ransom v. Shulkin,
719 Fed. Appx. 8 (D.C. Cir. 2018)………………….......9
Robinson v. Clipse,
602 F.3d 605 (4th Cir. 2010)...………………..........7, 17
Sanders-Burns v.
City of Plano,
594 F. 3d 366 (5th Cir. 2010)………………....…….......7
Schiavone v. Fortune,
477 U.S. 21 (1986)..…………….......16-17, 21-25, 27-29
Slade v. U.S. Postal Serv.,
875 F.2d 814 (10th Cir. 1989)………………….......7, 17
Slayton v. Am. Express Co.,
460 F.3d 215 (2d Cir. 2006)..…………….......6, 8-10, 17
Teva Pharmaceuticals USA, Inc.
v. Sandoz, Inc., 135 S. Ct. 831 (2015)……….......10, 15
Tho Dinh Tran v.
Alphonse Hotel Corp.,
281 F.3d 23 (2d Cir. 2002)………………….......8, 17-18

xiii

U.S. Bank v. Vill. at Lakeridge,
138 S. Ct. 960 (2018)……………………........5, 6, 12-15
Wilson v. Fairchild
Republic Co., Inc.,
143 F.3d 733 (2d Cir. 1998)…………………….......8, 18
Young v. Lepone,
305 F.3d 1 (1st Cir. 2002)...…………………….......6, 17
Statutes:
28 U.S.C. §1254(1)..………………………………….......1
35 U.S.C. §286.....………………………………….......3, 4
35 U.S.C. §271(a) ………………………………….......34
35 U.S.C. §271(g)……………………………….......33, 34
Fed. R. Civ. P. 15(c)…………………………………...ibid
1991 Advisory Committee
Notes, Rule 15…...………………………….......16, 24-25
2007 Advisory Committee
Notes, Rule 15……..………………………….......26, n. 6

xiv
Law Review Articles
Bauer, Schiavone: An Un-Fortune-ate
Illustration.of the Supreme Court’s
Role as Interpreter of the Federal
Rules of Civil Procedure,
63 Notre Dame L. Rev. 720 (1988)…………......24, n. 5
Brussack, Outrageous Fortune:
The Case for Amending Rule 15(c) Again,
61 S. Cal. L. Rev. 671 (1988)…………………….24, n. 5
Lewis, The Excessive History of Federal
Rule 15(c) and Its Lessons for Civil
Rules Revision,
86 Mich. L. Rev. 1507 (1987).……………….......24, n. 5

1
PETITION FOR WRIT OF CERTIORARI
Mushkin, Inc. respectfully petitions for a writ
of certiorari to review the Opinion and Judgment of
the United States Court of Appeals for the Federal
Circuit.
OPINIONS BELOW
The Opinion and Order of the Court of Appeals
(App. 1a-27a) is reported as Anza Technology, Inc. v.
Mushkin dba Enhanced Network Systems, Inc., 934
F.3d 1359 (Fed. Cir. 2019).
The Opinion and Order of the District Court
for the District of Colorado (Denver Div.) (App. 28a42a) is reported as Anza Technology, Inc. v. Mushkin
dba Enhanced Network Systems, Inc., 2018 U.S. Dist.
LEXIS 145761; 2018 WL 4095113 (D. Colo. Aug. 28,
2018).

JURISDICTION
The Opinion and Judgment of the Court of
Appeals was entered on August 16, 2019. This Court
has jurisdiction under 28 U.S.C. §1254(1).

2
CONSTITUTIONAL AND
STATUTORY PROVISIONS
Fed. R. Civ. P. 15(c)(1)(A)-(C) reads as follows:
(1) When an Amendment Relates Back. An
amendment to a pleading relates back to the
date of the original pleading when:
(A) the law that provides the applicable
statute of limitations allows relation back;
(B) the amendment asserts a claim or
defense that arose out of the conduct,
transaction, or occurrence set out—or
attempted to be set out—in the original
pleading; or
(C) the amendment changes the party or
the naming of the party against whom a
claim is asserted, if Rule 15(c)(1)(B) is
satisfied and if, within the period provided
by Rule 4(m) for serving the summons and
complaint, the party to be brought in by
amendment:
(i) received such notice of the action that
it will not be prejudiced in defending on
the merits; and
(ii) knew or should have known that the
action would have been brought against
it, but for a mistake concerning the
proper party's identity.

3
35 U.S.C. §286 states:
Except as otherwise provided by law,
no recovery shall be had for any
infringement committed more than six
years prior to the filing of the complaint
or counterclaim for infringement in the
action.

STATEMENT OF THE CASE
The trial court dismissed a Second Amended
Complaint finding that it did not “relate back” to the
original and First Amended Complaint under Fed. R.
Civ. P. 15(c)(1)(B). The trial court found that the
claims in the Second Amended Complaint were timebarred under the patent statute of limitations, 35
U.S.C. §286.
The trial court dismissed the Second Amended
Complaint because: (1) the two patents asserted for
the first time in the Second Amended Complaint
expanded the scope of the claimed subject matter in
the case, (2) the statutory basis for patent
infringement asserted in the Second Amended
Complaint had been previously withdrawn from the
original proceedings by Plaintiff’s infringement
contentions served on March 23, 2018, and (3) two new
products were added to the new infringement claims,
which were not the subject of the original proceedings.
Under Fed. R. Civ. P. 15(c)(1)(B), the district
court determined that the filing date for the Second
Amended Complaint did not “relate back” to the
original filing date of the original complaint. The

4
district court dismissed the Second Amended
Complaint because the statute of limitations
provisions set forth in 35 U.S.C. §286 precluded all
damages recovery for the patent infringement claims
set forth therein.
Based on a de novo standard of review (with
findings of fact reviewed for clear error), the Court of
Appeals for the Federal Circuit adopted a “liberal
notice-based” test for the relation back determination
under Fed. R. Civ. P. 15(c)(1)(B). Based on that
“notice-based” test, the Court of Appeals in the present
case reversed the district court’s decision finding the
Second Amended Complaint “related back” to the
original complaint with respect to products that were
previously identified in that pleading. With respect to
the two new products added for the first time in the
Second Amended Complaint, the Court of Appeals for
the Federal Circuit vacated and remanded the
proceedings to the district court to determine if there
was “relation back” based on the “notice-based”
“relation back” test set forth in the appellate opinion.

5
REASONS FOR GRANTING THE PETITION
I.

Certiorari Should Be Granted to Resolve
a Split Among the Circuits Regarding the
Correct Standard of Review for “Relation
Back” Determinations Under Fed. R. Civ.
P. 15(c), Which Is an Important Federal
Question Touching On Many Different
Cases

Certiorari should be granted to resolve a split in
the various circuits regarding the appropriate
standard of review to apply to “relation back”
determinations under Fed. R. Civ. P. 15(c)(1). This
Court should grant certiorari in order to bring all the
circuit courts of appeal into a uniform standard of
review, either based on one of the circuit courts of
appeal or, as discussed below, in line with this Court’s
recent U.S. Bank v. Village at Lakeridge decision. 1
Because “relation back” determinations under Rule
15(c) impact a wide variety of cases adjudicated in the
federal court system, this case presents an important
federal question that needs to be resolved by this
Court.
A. This Case Presents an Ideal Vehicle to
Resolve the Various Circuit Splits For the
Proper Standard of Review for “Relation
Back” Determinations
The circuit courts of appeal are split on the
proper standard of review for “relation back”
U.S. Bank v. Vill. at Lakeridge, 138 S. Ct. 960, 200 L.
Ed. 218 (2018).
1

6
determination under Fed. R. Civ. P. 15(c), with the
circuit courts of appeal applying the following
standards of review: (1) the First, Second, Third,
Fourth, Fifth, Sixth, Seventh, Ninth and Tenth Circuit
Courts of Appeal apply the de novo standard of review,
(2) the Federal Circuit Court of Appeals in the present
case applies the de novo standard of review, and
reviews factual findings reviewed for clear error; and
(3) the Eighth, Eleventh and the District of Columbia
Circuit Courts of Appeal apply the abuse of discretion
standard with Eighth and Eleventh Circuits applying
a clear error standard of review for factual findings.
This splintered approach for reviewing “relation back”
determinations among the various circuits should be
reconciled, and resolved, by this Court so that one
uniform standard of appellate review can be applied to
“relation back” determinations by the circuit courts of
appeal.
1. The First, Second, Third, Fourth, Fifth,
Sixth, Seventh, Ninth and Tenth Circuit
Courts of Appeal apply a de novo
standard of review to “relation back”
determinations
The majority of circuits, including the First,
Second, Third, Fourth, Fifth, Sixth, Seventh, Ninth
and Tenth Circuit Courts of Appeal, apply the de novo
standard of review for “relation back” determinations
under Fed. R. Civ. P. 15(c). 2 As noted in the Federal
Young v. Lepone, 305 F.3d 1, 14 (1st Cir. 2002);
Slayton v. Am. Express Co., 460 F.3d 215, 227–28 (2d
Cir. 2006); Glover v. FDIC, 698 F.3d 139, 144 (3d Cir.
2012); Robinson v. Clipse, 602 F.3d 605, 607 (4th Cir.
2

7
Circuit’s opinion in the present case, the appellate
decisions from these circuits provide little, or no,
rationale for the application of the de novo standard of
review in a “relation back” determination. Anza v.
Mushkin, 934 F. 3d 1359, 1366-68 (Fed. Cir. 2019),
App. 14a.
The rationale, when expressed, underlying
application of the de novo standard of review for
“relation back” determinations under Fed. R. Civ. P.
15(c) is that the reviewing court addresses a mixed
question of the legal standard of Rule 15(c) as applied
“to a given set of facts,” which is “a task we are no less
suited to perform than the district court.” See Anza v.
Mushkin, 934 F.3d 1359, 1367 (Fed. Cir. 2019), App.
14a (citing Miller, 231 F.3d at 247; accord Percy, 841
F.2d at 978; Lundy v. Adamar of N.J., Inc., 34 F.3d
1173, 1177 (3d Cir. 1994)).
While the majority of circuit courts of appeal
adopt a de novo standard of review to the Rule 15(c)(1)
determination, the cited decisions for these circuits do
not distinguish the standard of review applied to the
district court’s factual findings from the standard of
review applied to the ultimate “relation back”
determination under Fed. R. Civ. P. 15. In the absence
of any indication to the contrary, these circuit courts
of appeal appear to review the underlying factual
findings of the district court under the same de novo

2010); Sanders-Burns v. City of Plano, 594 F. 3d 366,
372 (5th Cir. 2010); Miller v. Am. Heavy Lift Shipping,
231 F.3d 242, 246–47 (6th Cir. 2000); Delgado-Brunet
v. Clark, 93 F.3d 339, 342 (7th Cir. 1996); Percy v. S.F.
Gen. Hosp., 841 F.2d 975, 978 (9th Cir. 1988); Slade v.
U.S. Postal Serv., 875 F.2d 814, 815 (10th Cir. 1989).

8
standard applied to the review of the Rule 15 “relation
back” determination.
2. The Second Circuit Court of Appeals
previously applied the abuse of
discretion standard of review to
“relation back” determinations before
overruling its own precedent in favor of
a de novo standard of review
Prior to 2006, the Second Circuit Court of Appeals
applied the abuse of discretion standard of review to
district court Fed. R. Civ. P. 15 “relation back”
determinations. Slayton v. Am. Express Co., 460 F.3d
215, 227–28 (2d Cir. 2006). As noted by the Slayton
court, the pre-2006 Second Circuit decisions rarely
identified the standard of appellate review for
“relation back” determinations. Id. at 226.
But, when the standard of review was identified
in prior Second Circuit decisions, the abuse of
discretion standard of review was applied to the
“relation back” determination. Id. (citing Tho Dinh
Tran v. Alphonse Hotel Corp., 281 F.3d 23, 35-36 (2d
Cir. 2002) (“We review a district court’s decision that
an amendment ‘relates back’ for an abuse of
discretion.”); Nettis v. Levitt, 241 F.3d 186, 193 (2d Cir.
2001) (“We review for abuse of discretion a district
court’s decision as to whether [the Rule 15(c)(2)]
standard has been met.”); Wilson v. Fairchild Republic
Co., Inc., 143 F.3d 733, 738 (2d Cir. 1998) (Whether a
new claim in amended pleading relates back to an
original complaint “lies in the district court’s
discretion . . . . and it is for abuse of that discretion
that we review the district court’s decision.”)).

9
In Slayton, the Second Circuit overruled its
precedent and held the de novo standard of review is
more appropriate for “relation back” determinations
stating that “the relation back issue is more analogous
to a dismissal on the pleadings than a balancing of
factors involving the conduct of a lawsuit.” Slayton,
460 F.3d at 227–28, n. 13. The Slayton court adopted
the de novo standard of review because that is the
same standard of review applied by appellate courts
when reviewing dismissals on the pleadings. Id.
3. The Eighth, Eleventh and the District of
Columbia Circuit Courts of Appeal
apply the abuse of discretion standard
with Eighth and Eleventh Circuits
applying a clear error standard of
review for factual findings
In Powers v. Graff, 148 F.3d 1223, 1226 (11th Cir.
1998), the Eleventh Circuit Court of Appeals held that
the “relation back” determination under Rule 15(c)
should be reviewed under an abuse of discretion
standard. Likewise, the Eighth Circuit Court of
Appeals and the District of Columbia Circuit Court of
Appeals also apply the abuse of discretion standard of
review for “relation back” determinations under Fed.
R. Civ. P. 15(c). KBHS Broad Co. v. Sanders (In re
Bozeman), 226 B.R. 627, 630 (B.A.P. 8th Cir. 1998);
Ransom v. Shulkin, 719 Fed. Appx. 8 (D.C. Cir. 2018).
The Eleventh and Eighth Circuits found that
findings of fact made by the district court that were
necessary for application of Rule 15 would be reviewed
for clear error. Powers, id. at 1226, KBHS Broad, id.
at 631. The abuse of discretion standard of review is
consistent with pre-2006 Second Circuit precedent

10
before the Slayton decision, and a review of factual
findings for clear error is consistent with the
requirements of Fed. R. Civ. P. 52(a). See, e.g., Teva
Pharmaceuticals USA, Inc. v. Sandoz, Inc., 135 S. Ct.
831, 841 (2015) (“But, to overturn the judge’s
resolution of an underlying factual dispute, the Court
of Appeals must find that the judge, in respect to those
factual findings, has made a clear error.”).
4. The Federal Circuit Court of Appeals, in
the present case, applies a de novo
standard of review, and reviews the
district court’s factual findings for clear
error.
In the present case, the Federal Circuit Court of
Appeals applied a de novo standard of review for the
“relation back” determinations under Fed. R. Civ. P.
15(c), and reviewed the district court’s findings of fact
under a clear error standard of review. The Federal
Circuit opinion in the present case notes that the other
circuits provide little, or no, rationale for the
application of a de novo standard of review in “relation
back” determinations. Anza v. Mushkin, 934 F.3d
1359, 1366-1368 (Fed. Cir. 2019), App. 14a. The
appeals court in the present case indicated that the
rationale, when expressed by other courts, for
adopting a de novo standard of review in “relation
back” determinations was that it is “a task we are no
less suited to perform than the district court.” See
Anza v. Mushkin, 934 F.3d 1359, 1367 (Fed. Cir. 2019),
App. 14a , citing Miller, 231 F.3d at 247; accord Percy,
841 F.2d at 978; Lundy v. Adamar of N.J., Inc., 34 F.3d
1173, 1177 (3d Cir. 1994).

11
Based on that review, the appeals court in the
present case applied the de novo standard of review
because adopting “an abuse of discretion standard
would be contrary to the law of most of the other
circuits, which have adopted a de novo standard when
reviewing decisions regarding whether an amended
pleading relates back to the date of the original
pleading.” Anza v. Mushkin, 934 F.3d 1359, 1367 (Fed.
Cir. 2019), App. 13a-14a (citations omitted).
The Federal Circuit acknowledged that in
“some instances, however, factual issues may need to
be addressed as part of the district court’s analysis of
the relation back issue,” and “[w]ith respect to any
disputed facts that are material to the relation back
issue, we are not as well situated as the district court
to make the appropriate findings.” Id. The Federal
Circuit in the present case held that such factual
findings should be reviewed for clear error, which
diverges from the de novo standard of review applied
by a majority of other circuits.
B. This Court Recently Decided the Clear
Error Standard of Review Is the Most
Appropriate Standard of Review for CaseSpecific Factual Determinations, as set
forth in the U.S. Bank v. Village at
Lakeridge Decision
Under Fed. R. Civ. P. 15(c)(1)(B), the “relation
back” determination asks whether: “(B) the amendment asserts a claim or defense that arose out of the
conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading. . .”
Fed. R. Civ. P. 15(c)(1)(B). While this analysis may be
characterized as a mixed question of law and fact, the

12
“relation back” determination is primarily a factual
analysis that compares conduct, transactions, and
occurrences described in the pleadings, as well as a review
of parties’ actions in the case. This type of determination
would immerse the district court in “case-specific factual”
analysis, which this Court has found to primarily involve
factual work, as opposed to legal work. See U.S. Bank v.
Village at Lakeridge, 138 S. Ct. 960, 200 L.Ed.2d 218,
222, 227 n. 4, 228 (2018).
This Court’s recent decision in U.S. Bank v.
Village at Lakeridge established that the clear error
standard of review applies to district court decisions
that primarily involve factual work, as opposed to the
other standards of review applied to legal work
conducted by the district court. Id. In that case, the
bankruptcy court concluded that a person, Mr. Rabkin,
was not an “insider” to a particular transaction based on
several findings of fact. Id. That designation supported the
bankruptcy court’s determinations. The Ninth Circuit
affirmed the bankruptcy court’s rulings finding that a
district court’s findings on the “insider” determination
were entitled to a clear error standard of appellate review.
Id. On certiorari, the Supreme Court, in a unanimous
opinion, affirmed the Ninth Circuit’s decision holding that
clear error was the appropriate standard of review for the
bankruptcy court’s “insider” determination. Id.
In U.S. Bank, this Court discussed the difference
between findings of law—which are reviewed de novo—
and findings of fact—which are reviewed for clear error.
Id. at 222-23, 226-229. This Court found that courts often
review mixed questions of law and fact under the de novo
standard of review when the underlying determination
“require[s] courts to expound on the law, particularly by
amplifying or elaborating on a broad legal standard.” Id.
This court then explained that the clearly erroneous

13
standard of appellate review applies to mixed questions
that “immerse courts in case-specific factual issues.” Id.
The U.S. Bank Court concluded that “the standard
of review for a mixed question all depends on whether
answering it entails primarily legal or factual work.” Id.
While this Court’s decision conceded that the
determination of whether Rabkin met the legal test for an
“insider” was a “mixed” question of law and fact, this Court
held that the basic question to be determined was whether,
“[g]iven all the basic facts found, Rabkin’s purchase of
MBP’s claim [was] conducted as if the two were strangers
to each other.” Id. Because “[t]hat is about as factual
sounding as any mixed question gets,” this Court held that
the clear error standard applied for appellate review of the
bankruptcy court’s determination. Id.
Similar to the case-specific facts that would need to
be reviewed in an “insider” bankruptcy determination in
the U.S. Bank case, a Fed. R. Civ. P. 15(c) “relation back”
determination also requires the district court to “immerse”
itself in “case-specific factual issues.” The “relation back”
analysis set forth in Fed. R. Civ. P. 15(c)(1)(B) compares
conduct, transactions, and occurrences described in the
pleadings, as well as a review of parties’ actions in the case,
which appear to be purely factual matters.
Focusing on whether the original claim gave
adequate “notice”3 to Mushkin of the nature of the
allegations in the amended pleading, the Federal Circuit
The appropriateness of the Federal Circuit’s “liberal
notice-based” test for “relation back” determinations under
Fed. R. Civ. P. 15(c)(1)(B) is addressed more fully below.
While the Petitioner questions the ultimate question posed
by this “liberal notice-based” test, the factors considered in
the Fed. R. Civ. P. 15(c)(1)(B) analysis appear to be purely
factual in nature.
3

14
in the present case admitted that factual issues should be
considered in the Fed. R. Civ. P. Rule 15(c)(1)(B)
determination, as follows: “we will consider the overlap of
parties, the overlap in the accused products, the
underlying science and technology, time periods, and any
additional factors that might suggest a commonality or
lack of commonality between the two sets of claims.” Anza
v. Mushkin, 934 F.3d 1359, 1369 (Fed. Cir. 2019), App.
18a-19a.
Moreover, the appeals court in the present case
characterized the “relation back” analysis in factual terms
as follows: “the question remains whether the general
factual situation or the aggregate of operative facts
underlying the original claim for relief” support the
“relation back” determination under Fed. R. Civ. P.
15(c)(1)(B). Id. at 1369, App. 19a. The Federal Circuit in
the present case found that, based on a comparison of
similar language in Fed. R. Civ. P. 13(a) and 20(a), factual
matters need to be considered for “relation back”
determinations, such as “the overlap of parties, products
or processes, time periods, licensing and technology
agreements, and product or process development and
manufacture.” Id.
All the considerations underlying the “relation
back” determination under Fed. R. Civ. P. 15(c), as found
by the appeals court in the present case, are characterized
in purely factual terms. See Anza v. Mushkin, 934 F.3d
1359, 1368-1373 (Fed. Cir. 2019), App. 19a (“general
factual situation or the aggregate of operative facts
underlying the original claim for relief”). As similarly
found by this Court in the U.S. Bank decision, the “relation
back” determination, based on the rule itself and
characterizations of the analysis, “is about as factual
sounding as any mixed question gets.”

15
This Court recently addressed the standard of
review for another mixed question involving the legal
interpretation given to a patent claim term in a patent
claim construction context. Teva Pharmaceuticals USA,
Inc. v. Sandoz, Inc., 135 S. Ct. 831, 840-842 (2015). In
Teva, this Court held that the patent claim
construction is a legal conclusion to be reviewed under
the de novo standard of review, with findings of fact
reviewed for clear error. Id.
In contrast to the claim construction legal work
addressed in the Teva decision, the “relation back”
determination under Fed. R. Civ. P. 15(c)(1)(B) is
factual work that does not “require [the district] courts
to expound on the law, particularly by amplifying or
elaborating on a broad legal standard.” U.S. Bank, id. at
222-23, 226-229; see Anza v. Mushkin, 934 F.3d 1359,
1368-73 (Fed. Cir. 2019), App. 19a (“general factual
situation or the aggregate of operative facts underlying the
original claim for relief”).
For the above reasons, the standards of review
applied by the circuit courts of appeals appear to be in
conflict with this Court’s U.S. Bank decision. The
touchstone for the adoption of a standard of review
should not be whether an appeals court is “as well
suited” as the district court to make a determination,
but instead whether the kind of work being
undertaken by the district court is legal work or
factual work. This case is particularly well-suited for
bringing all the circuit courts of appeal into a uniform
standard of review, either based on one of the circuit
courts of appeal or in line with the recent U.S. Bank
decision.

16
C. This Case Presents an Important Federal
Question that Needs To Be Resolved by
this Court Because the “Relation Back”
Determination Has A Significant Impact
on Many Different Types of Cases
In 1986, this Court granted certiorari to
consider the “relation back” determination under an
earlier version of Fed. R. Civ. P. 15. Schiavone v.
Fortune, 477 U.S. 21 (1986) (“Because of an apparent
conflict among the Courts of Appeal, we grant
certiorari.”). The Schiavone court reviewed, and
interpreted the requirements, of the 1966 version of
Fed. R. Civ. P. 15 in the context of a “relation back”
determination. Id.; see also, discussion, Jacobsen v.
Osburne, 133 F. 3d 315 (5th Cir. 1998).
As will be discussed in more detail below, this
Court in Schiavone rejected a “liberal” interpretation
of Fed. R. Civ. P. 15 by requiring a showing of all
elements in the rule (e.g. common operative facts,
notice, and lack of prejudice) to be present for “relation
back” to be found under Fed. R. Civ. P. 15(c). Id.
After the Schiavone decision in 1986, the
Federal Rules of Civil Procedure were amended in
1991 and 1993 to overrule the Schiavone decision.
1991 Advisory Committee Notes, Rule 15. Since that
time, Petitioner cannot find any decision from the
Supreme Court that addresses the standard of review
to be applied to cases applying amended Rule
15(c)(1)(B).
Issued over 30 years ago, the Schiavone decision
appears to be the latest word from the Supreme Court
on the standard of review to be applied to Rule 15
“relation back” determinations, and that decision was
overruled by the 1991 and 1993 amendments to the

17
Federal Rules. This case, therefore, presents this
Court with an ideal vehicle to address Fed. R. Civ. P.
15(c), its standards of review and the application of the
rule as amended in 1991 and 1993.
“Relation back” determinations can arise in
many different types of cases. That is, this case would
not just have an impact on patent cases or appeals
reviewed at the Federal Circuit Court of Appeals. On
the contrary, this Court’s review of this case would
have a broad impact on many different types of cases
across the nation, such as libel, Schiavone v. Fortune,
477 U.S. 21 (1986) (on appeal from the Second Circuit);
§1983 false arrest and excessive force claims, Jacobsen
v. Osborne, 133 F. 3d 315 (5th Cir. 1998); patent
infringement claims, Anza v. Mushkin, 934 F. 3d 1359
(Fed. Cir. Aug. 16, 2019); shareholder federal
securities claims, Young v. Lepone, 305 F.3d 1, 14 (1st
Cir. 2002); Fair Debt Collections Practices Act and
Pennsylvania FCEUA, Glover v. FDIC, 698 F.3d 139,
144 (3d Cir. 2012); §1983 excessive force claims,
Robinson v. Clipse, 602 F.3d 605, 607 (4th Cir. 2010);
survival and wrongful death claims under Jones Act,
Miller v. Am. Heavy Lift Shipping, 231 F.3d 242, 246–
47 (6th Cir. 2000); Eighth Amendment violations
alleged by inmate, Delgado-Brunet v. Clark, 93 F.3d
339, 342 (7th Cir. 1996); wrongful termination under
42 U.S.C. §§1983 and 2000, Percy v. S.F. Gen. Hosp.,
841 F.2d 975, 978 (9th Cir. 1988); employment claims
against the U.S. Postal Services, Slade v. U.S. Postal
Serv., 875 F.2d 814, 815 (10th Cir. 1989); class action
securities, Slayton v. Am. Express Co., 460 F.3d 215,
227–28 (2d Cir. 2006); Fair Labor Standards and
RICO violations, Tho Dinh Tran v. Alphonse Hotel
Corp., 281 F.3d 23, 35-36 (2d Cir.2002); diversity case
alleging CEPA violation, Nettis v. Levitt, 241 F.3d 186,

18
193 (2d Cir. 2001); wrongful termination under 42
U.S.C. §2000, Wilson v. Fairchild Republic Co., Inc.,
143 F.3d 733, 738 (2d Cir. 1998); and class action
securities, Powers v. Graff, 148 F.3d 1223, 1226 (11th
Cir. 1998).
“Relation back” determinations are important
issues that can arise in almost any case having
amended pleadings and a statute of limitations. In
those cases, if “relation back” is found, an amended
pleading can avoid the applicable statute of
limitations. The District Court for the District of New
Jersey most succinctly stated the issue in Collezione
Europa U.S.A., Inc. v. Amini Innovation Corp., 2009
WL 2634648, at *4 (D. N.J. Aug. 26, 2009) as follows:
[I]f the Court were to allow
amendments that are out of time to
relate back that involve entirely
different copyrights for entirely
different products, a party could
readily evade a statute of limitations
by bootstrapping stale copyright
claims onto ones that are fresh, thus
allowing the exception to swallow the
rule. Such a holding would render the
statute of limitations a nullity in
copyright cases.
Id. at p. 8.
Evasion of the statute of limitations through
the “bootstrapping” of stale claims onto “ones that are
fresh” is an important federal question that needs to
be addressed by this Court. This issue is important
because allowing an expansion of the “relation back”
doctrine with a “liberal” test could result in “the
exception” swallowing “the rule” governed by the
statute of limitations, which could render “the statute

19
of limitations a nullity.” See Collezione Europa U.S.A.,
Inc., 2009 U.S. Dist. LEXIS 76411, at p. 8.
The questions to be resolved by this Court in
the present case are relevant to a wide spectrum of
cases and would have a significant impact on the
applicability of the statute of limitations in all the
circuit courts of appeal. Because the present case
presents important federal questions for this Court to
resolve, this Court should grant this Petition for a
Writ of Certiorari.
II.

A “Liberal Notice-Based” Test Does Not
Comport With The Elimination Of The
Notice Requirements In The “Conduct,
Transaction, Or Occurrence” Language In
Fed. R. Civ. P. 15(C)(1)(B) Per The 1991
And 1993 Amendments To Rule 15(C)

In the present case, the appeals court reviewed
a district court’s dismissal of a Second Amended
Complaint under Fed. R. Civ. P. 15(c)(1)(B). 4 Under
that provision of Fed. R. Civ. P. 15(c), “relation back”
is permitted if the claims in the amended pleading
arise from the same “conduct, transaction or
occurrence” set out in the original pleading. Fed. R.

The Second Amended Complaint filed by Plaintiff
Anza Technology, Inc. did not change the name of the
Defendant, Mushkin, Inc. from the original pleading,
which means Fed. R. Civ. P. 15(c)(1)(C) does not apply
to this case. The “relation back” determination under
Fed. R. Civ. P. 15(c)(1) would be controlled, in the
present case, exclusively by the analysis under Fed. R.
Civ. P. 15(c)(1)(B).
4

20
Civ. P. 15(c)(1)(B); see also, Anza v. Mushkin, 934 F.3d
1359, 1365 (Fed. Cir. 2019), App. 8a.
In the absence of any Federal Circuit precedent
dictating the test for the “relation back” determination
under Fed. R. Civ. P. 15(c)(1)(B), the appeals court in
the present case adopted a “liberal notice-based” test
for this determination. See Anza v. Mushkin, 934 F.3d
1359, 1368-73 (Fed. Cir. 2019), App. 15a-19a, 26a
(“liberally” interpreted, “notified of litigation,”
“liberal, notice-based interpretation,” “read liberally,”
“gave notice,” “sufficient notice,” “gave adequate
notice,” “notice-based interpretation of Rule 15(c),”
background “technological overlap suggests” “original
complaint gave notice,” whether new allegations “are
too far afield from original complaint to put Mushkin
on notice of the allegations against which it would be
required to defend,” and “[t]here is no lack of notice
and no substantial prejudice to Mushkin from having
to defend against independent claims over a shorter
period than the period set forth in the original
complaint.”).
The Federal Circuit’s “liberal notice-based” test
for the “relation back” determination under Fed. R.
Civ. P. 15(c)(1)(B) was summarized in Anza v.
Mushkin as follows: “[a]t bottom, however, the
question remains whether the general factual
situation or the aggregate of operative facts
underlying the original claim for relief gave notice to
Mushkin of the nature of the allegations it was being
called upon to answer.” Id. at 1369-70; App. 19a.
The adoption of a “liberal notice-based” test for
“relation back” determinations under Fed. R. Civ. P.
15(c)(1)(B) is misplaced in view of the amendments to
Fed. R. Civ. P. 15(c) in 1991 and 1993, which
eliminated the “notice” and “prejudice” requirements

21
from the “conduct, transaction or occurrence”
provision of Fed. R. Civ. P. 15(c)(1). By deleting the
“notice” and “prejudice” requirements from the
“conduct, transaction or occurrence” provision of Fed.
R. Civ. P. 15(c)(1), the 1991 and 1993 amendments to
Fed. R. Civ. P. 15(c) were meant to codify a more
“liberal” interpretation of that rule and overrule the
narrow interpretation of Rule 15(c) adopted by this
Court’s Schiavone decision.
The appeals court in the present case did not
consider the impact of the 1991 and 1993 amendments
to Rule 15(c) in its analysis; and, the opinion rendered
by the appeals court in the present case primarily
relies on legal precedent that interpreted an older
version of Rule 15(c) before the significant
amendments to that rule in 1991 and 1993.
Because the “liberal notice-based” test adopted
by the Federal Circuit in the present case for a
“relation back” determination for Fed. R. Civ. P.
15(c)(1)(B) appears to be in error, this Court should
grant Certiorari to establish the correct test for
“relation back” determinations under the “conduct,
transaction or occurrence” provisions of that rule.
Establishing a uniform test for “relation back”
determinations under Fed. R. Civ. P. 15(c)(1)(B) would
greatly assist the courts in making future “relation
back” determinations.

22
A. This Court’s Schiavone Decision
Required Notice, and the Other
Factors of Rule 15(c), To Be Present
Simultaneously for “Relation Back” to
Be Found
In 1986, this Court in Schiavone reviewed, and
interpreted, the requirements of the 1966 version of
Fed. R. Civ. P. 15(c) as it applied to “relation back”
determinations. Schiavone, 477 U.S. 21, 32, n. 5
(1986); see discussion, Jacobsen v. Osburne, 133 F. 3d
315 (5th Cir. 1998). Fed. R. Civ. P. 15(c), at that time,
read in in pertinent part:
Whenever the claim or defense
asserted in the amended pleading
arose out of the conduct, transaction, or
occurrence set forth or attempted to be
set forth in the original pleading, the
amendment relates back to the date of
the original pleading. An amendment
changing the party against whom a
claim is asserted relates back if the
foregoing provision is satisfied and,
within the period provided by law for
commencing the action against him,
the party to be brought in by
amendment (1) has received such
notice of the institution of the action
that he will not be prejudiced in
maintaining his defense on the merits,
and (2) knew or should have known
that, but for a mistake concerning the
identity of the proper party, the action
would have been brought against him.
Fed. R. Civ. P. 15(c).

23
Applying a “plain reading” of the rule at that
time, the Schiavone Court held that Fed. R. Civ. P.
15(c) required that all elements in the rule must be
met to support a relation back determination,
including the same “conduct, transaction, or
occurrence,” adequate “notice,” “lack of prejudice,” and
“knew or should have known” that the amended action
would be brought. Schiavone, 477 U.S. at 29 (relation
back is dependent on four factors, “all of which must
be satisfied”).
As discussed in Jacobsen v. Osborne, 133 F. 3d
315 (5th Cir. 1998), the Schiavone Court rejected a
more “liberal” interpretation of Rule 15(c) under this
1966 version by requiring a showing of all factors,
including “notice” and “lack of prejudice” together with
the same “conduct, transaction or occurrence,” as
follows:
(1) the basic claim must have risen out of
the conduct set forth in the original
proceeding; (2) the party to be brought in
must have received such notice that it
will not be prejudiced in maintaining its
defense; (3) the party must or should
have known that, but for a mistake
concerning identity, the action would
have been brought against it; and (4) the
second and third requirements must
have been fulfilled within the prescribed
limitations period.
Jacobsen v. Osborne, 133 F. 3d 315 (5th Cir. 1998);
Moore v. Long, 924 F.2d 586, 587 (5th Cir. 1991)
(quoting Schiavone, 477 U.S. at 29).
As described in Schiavone, a narrow
interpretation of Fed. R. Civ. P. 15(c) at that time
required that “in order for an amendment adding a

24
party to relate back under Rule 15(c), the party to be
added must have received notice of the action before
the statute of limitations has run.” Schiavone at 32.
Under the Schiavone court’s narrow interpretation of
Rule 15(c), “[t]he linchpin is notice, and notice within
the limitations period.” Id.
B. The 1991 and 1993 Amendments
Removed the Notice Requirement
From the “Conduct, Transaction or
Occurrence” Language of Fed. R.
Civ. P. 15(c) To Change the
Result of Schiavone
As noted in the Advisory Committee Notes for
the 1991 Amendments to Rule 15(c), “[o]n the basis of
the text of the former rule, the Court reached a result
in Schiavone v. Fortune that was inconsistent with the
liberal pleading practices secured by Rule 8.” Notes of
Advisory Committee on Rules, Rule 15(c)–1991
Amendments. The Schiavone court’s rejection of the
liberal interpretation for Rule 15 was also the subject
of several comments and law review articles, which
were mentioned in the Advisory Committee Notes. 5

Id. (citing Bauer, Schiavone: An Un-Fortune-ate
Illustration of the Supreme Court’s Role as Interpreter
of the Federal Rules of Civil Procedure, 63 Notre Dame
L. Rev. 720 (1988); Brussack, Outrageous Fortune: The
Case for Amending Rule 15(c) Again, 61 S. Cal. L. Rev.
671 (1988); Lewis, The Excessive History of Federal
Rule 15(c) and Its Lessons for Civil Rules Revision, 86
Mich. L. Rev. 1507 (1987).
5

25
The 1991 and 1993 Amendments to Rule 15(c)
were intended to change the scope and content of this
rule, and these amendments were meant to overrule
the Schiavone decision thereby codifying a more
liberal interpretation of Fed. R. Civ. P. 15(c) for
“relation back” determinations. See Notes of Advisory
Committee on Rules, Rule 15(c) – 1991 Amendments
(“Paragraph (c)(3). This paragraph has been revised to
change the result in Schiavone v. Fortune, supra, with
respect to the problem of a misnamed defendant,” and
for “Paragraph (c)(1),” “If Schiavone v. Fortune, 106 S.
Ct. 2379 (1986) implies the contrary, this paragraph is
intended to make a material change in the rule.”).
With the 1991 and 1993 amendments, all reference to
“notice” in the common “transaction, occurrence, or
conduct” provisions of Fed. R. Civ. P. 15(c)(1)(B) was
eliminated, as shown below first in Rule 15(c)(2) before
it was renumbered in 2007 for stylistic reasons as Rule
15(c)(1)(B).
Rule 15(c), as amended in 1991 and 1993,
provides:
An amendment of a pleading relates
back to the date of the original pleading
when
(1) relation back is permitted by the
law that provides the statute of
limitations applicable to the action, or
(2) the claim or defense asserted in
the amended pleading arose out of the
conduct, transaction, or occurrence set
forth or attempted to be set forth in the
original pleading, or
(3) the amendment changes the
party or the naming of the party
against whom a claim is asserted if the

26
foregoing provision (2) is satisfied and,
within the period provided by Rule
4(m) for service of the summons and
complaint, the party to be brought in by
amendment (A) has received such
notice of the institution of the action
that the party will not be prejudiced in
maintaining a defense on the merits,
and (B) knew or should have known
that, but for a mistake concerning the
identity of the proper party, the action
would have been brought against the
party.
Fed. R. Civ. P. 15(c)(1)-(3)(“or” added between subsections). With the elimination of the “notice” and
“prejudice” requirements from the “conduct,
transaction or occurrence” provision in Fed. R. Civ. P.
15(c)(2), notice was no longer the “linchpin” for
“relation back” determinations for that provision of
Fed. R. Civ. P. 15(c).
In 2007, stylistic amendments to the Federal
Rules re-designated sub-section designations of Rule
15(c)(1)-(3) into Fed. R. Civ. P. 15(c)(1)(A)-(C). 6
Consistent with the “conduct, transaction, or
occurrence” provisions of Rule 15(c)(2), Fed. R. Civ. P.
15(c)(1)(B) also does not possesses “notice” and
“prejudice” requirements.

Fed. R. Civ. P. 15(c)(1)-(3) was amended in 2007 “as
part of the general restyling of the Civil Rules,” which
re-numbered Rule 15(c) into its current Fed. R. Civ. P.
15(c)(1)(A)-(C) designations. Adv. Comm. Notes, 2007
Amendment (“These changes are intended to be
stylistic only.”)
6

27
As shown above, the 1991 and 1993
amendments to Rule 15(c) added the disjunctive
particle “or” between each sub-section (c)(1), (c)(2) and
(c)(3), and the stylistic amendments in 2007 retained
the disjunctive particle “or” between the re-designated
sub-sections (c)(1)(B) and (c)(1)(C).
By including the disjunctive particle “or”
between each of the sub-sections in Rule 15(c) and
eliminating the “notice” and “prejudice” requirements
from the “conduct, transaction or occurrence”
language in Fed. R. Civ. P. 15(c) [now Fed. R. Civ. P.
15(c)(1)(B)], this Court’s Schiavone decision was
overruled in favor of a codification of the liberal
interpretation of Fed. R. Civ. P. 15(c) consistent with
the goals and purpose set forth in Federal Rules of
Civil Procedure.
C. The Federal Circuit’s Decision in
the Present Case Attempts to
Add a Notice Requirement
Back Into the “Conduct, Transaction
or Occurrence” Language of
Fed. R. Civ. P. 15(c)(1)
As characterized by the appeals court in the
present case, the Federal Circuit established, and
applied, a “liberal notice-based” test for “relation back”
determinations under Fed. R. Civ. P. 15(c)(1)(B). See
Anza v. Mushkin, 934 F.3d 1359, 1366-73 (Fed. Cir.
2019), App. 15a-19a, 26a (“liberally” interpreted,
“notified of litigation,” “liberal, notice-based
interpretation,” “read liberally,” “gave notice,”
“sufficient notice,” “gave adequate notice,” “noticebased interpretation of Rule 15(c),” background

28
“technological overlap suggests” “original complaint
gave notice”).
The Federal Circuit’s “liberal notice-based” test
for the “relation back” determination under Fed. R.
Civ. P. 15(c)(1)(B) was summarized by that court to be
as follows: “[a]t bottom, however, the question remains
whether the general factual situation or the aggregate
of operative facts underlying the original claim for
relief gave notice to Mushkin of the nature of the
allegations it was being called upon to answer.” Id. at
App. 19a, 26a (whether new allegations “are too far
afield from original complaint to put Mushkin on
notice of the allegations against which it would be
required to defend,” and “[t]here is no lack of notice
and no substantial prejudice to Mushkin from having
to defend against independent claims over a shorter
period than the period set forth in the original
complaint.”).
Most of the decisions relied upon by the appeals
court in the present case pre-date the 1991 and 1993
amendments to Fed. R. Civ. P. 15(c), which means the
supporting precedent cited by the appeals court in the
present case is inapposite to the rule as currently
codified. Namely, as support for its “liberal noticebased” test of Fed R. Civ. P. 15(c)(1)(B), the Federal
Circuit relied on Supreme Court precedent [1945 and
1984 decisions (App. 15a)], predecessor Court of
Claims decisions [1967, 1970, and 1968 decisions (App.
15a-16a)], and a few Federal Circuit cases [1987 and
1990 decisions (App. 16a)]. These pre-1991 cases were
interpreting an older version of Rule 15(c) that was
altered significantly by the 1991 and 1993
amendments.
The appeals court in the present case does not
mention the Schiavone decision, and the appeals

29
court’s opinion in the present case does not consider
the impact of the 1991 and 1993 amendments on the
application of Fed. R. Civ. P. 15(c)(1)(B) to the
“relation back” determinations. In light of the 1991
and 1993 amendments to Fed. R. Civ. P. 15(c), the
adoption of a “liberal notice-based” test for “relation
back” determinations under Fed. R. Civ. P. 15(c)(1)(B)
is misplaced.
The “liberal notice-based” test adopted by the
Federal Circuit in the present case for a “relation
back” determination for Fed. R. Civ. P. 15(c)(1)(B) is
erroneous because it attempts to inject the “notice”
requirements back into the “conduct, transaction, or
occurrence” provisions of Fed. R. Civ. P. 15(c)(1)(B).
The “conduct, transaction, or occurrence” provision of
Fed. R. Civ. P. 15(c)(1), however, was amended almost
30 years ago to eliminate the need for a showing of
“notice” in that provision.
There are fundamental errors in the “relation
back” analysis under the Federal Circuit’s “liberal
notice-based” test. Based on the current text in the
Fed. R. Civ. P. 15(c)(1)(B) and the history of this
provision, the appeals court’s “liberal notice-based”
test for “relation back” determinations attempts to
“unwind” the 1991 and 1993 amendments to Fed. R.
Civ. P. 15(c), which is a fundamental error that should
reviewed, and corrected, by this Court’s grant of
Certiorari.

30
III.

A “Relation Back” Test Based on the Plain
Text of Fed. R. Civ. P. 15(c)(1)(B) Would
Avoid Problems Inherent in the Federal
Circuit’s “Liberal Notice-Based” Test

By ignoring the 1991 and 1993 amendments to
Fed. R. Civ. P. 15(c), the appeals court in the present
case “turns back the clock” by re-introducing the notice
requirements into the common “transactions, conduct
or occurrence” test of Fed. R. Civ. P. 15(c)(1)(B). By reintroducing “notice” requirements into the “relation
back” test for Fed. R. Civ. P. 15(c)(1)(B), the Federal
Circuit re-introduces the “elements of arbitrariness”
previously criticized by the commentators of the
Schiavone decision. The post-Schiavone amendments
to Rule 15(c) in 1991 and 1993 were intended to
eliminate these “elements of arbitrariness.”
A “relation back” test formulated on the plain
text of the “conduct, transaction or occurrence”
language of Fed. R. Civ. P. 15(c)(1)(B) would avoid the
problems created the overly broad expansion of the
scope of Fed. R. Civ. P. 15(c)(1)(B) under a “liberal
notice-based” “relation back” test.
The Federal
Circuit’s expanded “liberal” test for “relation back”
determinations interjects “elements of arbitrariness”
in the following ways: (1) the court focused on a broad
description of the general background technology
involved in the case, as opposed to comparing the
amended scope of the case based on a review of
relevant “conduct, transactions or occurrences,” (2) the
court ignored contentions duly served by the Plaintiff
that waived infringement claims and statutory bases
in the original proceedings, even though Plaintiff
never retracted these waived provisions, and, (3) the
court segregated the newly accused products identified

31
for the first time in the amended pleading from the
other “conduct, transactions, or occurrences” involved
in the entire case, considered as a whole, even after
acknowledging that “it is improbable that allegations
regarding different products, involving different
patents, would have a common core of operative facts.”
A. Appeals Court’s Improper Focus on a
Broad Description of Underlying
General Background Technology
The district court found that the scope of the
patent claims in the original proceeding (‘927 patent)
would be directed to the use of “flip chip” “ball
placement capillary” bonding tips, and the appeals
court confirmed that the asserted claims in the two
new patents asserted in the Second Amended
Complaint “broadly recite methods of using bonding
tips more generally.” Id. at App. 20a. Based on the
narrow scope of asserted use of a particular “flip chip”
“ball placement capillary” bonding tip covered by the
‘927 patent in the original proceedings, and the
“broad” methods of using any “bonding tip” in the new
patents asserted in the Second Amended Complaint,
the district court found that there would be a different,
broader scope to the amended pleading compared to
the original proceeding.
The appeals court disagreed with the district
court’s findings on the broader scope of the Second
Amended Complaint because the two newly-asserted
patents and the originally-asserted patent share the
same “underlying” background technology of placing a
dissipative material on a bonding tip. Anza v. Mushkin,
934 F.3d 1359, 1369-71 (Fed. Cir. 2019), App. 20a.
Ignoring what was actually claimed in the patents, the

32
appeals court in the present case found that “[t]his
technological overlap suggests that the aggregate of
operative facts underlying infringement under the
‘927 patent in the original complaint gave notice of the
substance of the claims of infringement under the ‘479
and ‘864 patents in the second amended complaint.”
Id.
The appeals court in the present case primarily
relied on this similarity in general background
technology even though it conceded the following
operative facts: (1) “the patents address different
bonding techniques,” App. 20a, (2) “the original
complaint differs from the second amended complaint
in that the original complaint was limited to products
manufactured using flip chip bonding,” App. 21a, and,
(3) “the specifications of the ‘479 and ‘864 patents
discuss only wire bonding,” App. 20a. All of these
operative facts were disregarded by the appeals court
in favor of the similarity of the general background
technology, which “suggested” to the appeals court
that there was “notice” provided to the defendant of
the new infringement claims.
Instead of properly considering the actual
operative facts present in the case (which support the
district court’s conclusions), the appeals court in the
present case focused upon the “overlap” of a
technological background description to “suggest”
notice. Broad technological background descriptions
and “suggestions of notice” should not be the primary
focus of the “relation back” determination, and those
factors should not replace a comparison of the actual
operative facts involved with claims set forth in the
amended pleading.
Instead of focusing on the
underlying technological background of the case, the
“relation back” determination should focus on whether

33
the scope of the case is expanded, the same, or
contracted by the amended pleading based on a review
of relevant “conduct, transactions or occurrences.”
Overall, the Federal Circuit’s “liberal noticebased” test diverts the proper focus away from a
comparison of the operative facts shown in the actual
“transactions, conduct or occurrences,” which a plain
reading of Fed. R. Civ. P. 15(c)(1)(B) would require.
B. The Appeals Court Failed to Properly
Weigh the Impact of the Infringement
Contentions Signed and Served by
Plaintiff in the Original Proceedings
The appeals court in the present case
recognized the fact that Anza executed and served
Infringement Contentions pursuant to the Local Rules
of the District of Colorado in the original proceedings,
and those Infringement Contentions withdrew claims
of infringement under 35 U.S.C. §271(g) of the Patent
Act and withdrew claims of infringement of Claim 16
of the ‘927 patent (method of use claims). Id. at App.
21a-22a. 7

The District Court’s Order granting the Motion to
Dismiss identifies these Infringement Contentions as
“informal” because they were served before an Answer
was filed by the Defendant.
The Infringement
Contentions, however, were formally signed by Anza’s
counsel, and served on Mushkin on March 23, 2018,
with hundreds of pages of documents and a proof of
service was filed on the docket for the case noting the
execution and service of same, as well as compliance
with the District of Colorado’s Patent Rules.
7

34
Anza has never retracted or modified their
Infringement Contentions as executed and served in
the original proceedings on March 23, 2018, and those
Infringement Contentions still stand as the “final” and
“last word” from Anza as to the infringement claims
Anza was asserting in the original proceedings. After
the execution and service of their Infringement
Contentions, Anza’s claims for infringement were
limited to direct infringement under 35 U.S.C. §271(a)
of system claims in the ‘927 patent (and all claims of
infringement of methods of use claims under 35 U.S.C.
§271(g) were withdrawn). In the Motion to Dismiss,
the district court considered the subsequent reintroduction in the Second Amended Complaint of the
withdrawn 35 U.S.C. §271(g) method of use claims to
be an expansion of the case compared to the original
proceedings.
The appeals court indicated that the
Infringement Contentions executed and served by
Anza could have been supplemented or amended at a
later date. Mushkin agrees that Anza, with leave of
the Court, could have amended those contentions.
But, Anza never supplemented, modified or amended
those Infringement Contentions in the present case,
and their positions were never retracted by Anza at
any time in the proceedings.
Because there was no retraction of Anza’s
position withdrawing 35 U.S.C. §271(g) infringement
claims from the original proceedings, the district
court’s reliance on Anza’s un-retracted positions, was
not error. The appeals court’s failure to properly
consider the impact and weight of the un-retracted
positions set forth in Anza’s Infringement Contentions
adds another “element of arbitrariness” to the appeals

35
court’s analysis, which should be reviewed by this
Court.
C. As Discussed in the Federal Circuit’s
Opinion, It is Improbable That Newly
Added Products Asserted Under
Different Patents Would Have a
Common Core of Operative Facts
The appeals court in the present case
segregated their consideration of the “relation back”
analysis for the newly accused products identified for
the first time in the Second Amended Complaint,
instead of considering, and comparing, the scope of the
case presented in the Second Amended Complaint, as
a whole, to the original proceedings. That is, the entire
scope of the case defined by the Second Amended
Complaint was not considered as a whole in the
“relation back” determination, and the appeals court
did not review the “conduct, transactions, or
occurrences” of the entire case in a comparative
analysis.
The Federal Circuit in the present case
indicated that other courts have found “it is
improbable that allegations regarding different
products, involving different patents, would have a
common core of operative facts.” Id. at App. 26a. In
the present case, a comparative analysis of the
operative facts, including the actual “transactions,
conduct or occurrences,” for the case as a whole, found
that the Plaintiff’s amended allegations regarding
different product, involving different patents, do not
possess a common core of operative fact.
The
improbability discussed by the Federal Circuit
describes the present case, as found by the district

36
court. If the comparative analysis was conducted
based on a plain reading of Fed. R. Civ. P. 15(c)(1)(B)
applied to the case as a whole, no relation back would
have been found and the district court’s analysis would
likely have been affirmed.
Instead of considering the amended case as a
whole, the appeal court bifurcated its analysis. But,
there is no indication that this analysis should be
bifurcated or conducted in a piecemeal fashion under
Fed. R. Civ. P. 15(c)(1)(B), and a plain reading of that
provision would appear to require just the opposite.
Considering the case as a whole, the improbability
noted above by the Federal Circuit would result in a
finding that the case defined by the amended pleading
would not “have a common core of operative facts.”
The appeals court’s failure to properly consider the
scope and impact of the Second Amended Complaint,
as a whole, adds another “element of arbitrariness” to
the appeals court’s analysis, which should be reviewed
by this Court.
D. A Plain Reading of Fed. R. Civ. P.
15(c)(1)(B) Should Be Applied to
“Relation Back” Determinations
A plain reading of the “conduct, transactions or
occurrence” language in Fed. R. Civ. P. 15(c)(1)(B)
indicates that “relation back” arises when an
“amendment asserts a claim or defense that arose out
of the conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading.”
Fed. R. Civ. P. 15(c)(1)(B). This Court in Mayle v.
Felix, addressed “relation back” determinations in the
habeas corpus context, stating that “[t]he very purpose
of Rule 15(c)(2), as the dissent notes, is to “qualify a

37
statute of limitations,” “[b]ut ‘qualify’ does not mean
repeal.” Mayle v. Felix, 545 U.S. 644, 662-63 (2005).
Requiring that Rule 15(c)(1)(B) be interpreted in a
“liberal” manner adds an element of “arbitrariness” to
this analysis, which should be reviewed by this Court.

CONCLUSION
This Court should grant Certiorari to resolve
the proper standard of appellate review, and the
proper rule to be applied, for “relation back”
determinations under Fed. R. Civ. P. 15(c)(1)(B). A
plain reading of the “conduct, transaction, or
occurrence” provisions of Rule 15(c)(1)(B) should be
applied to “relation back” determinations in light of
elimination of “notice” and “lack of prejudice” elements
from that provision in the 1991 and 1993 Amendments
to that rule.
Respectfully submitted,
D. SCOTT HEMINGWAY
Hemingway & Hansen LLP
1700 Pacific Ave., Ste. 4800
Dallas, Texas 75201
Telephone: (214) 292-8301
THOMAS S. RICE
Senter Goldfarb & Rice
3900 E. Mexico Ave.
Suite 700
Denver, CO 80210
Telephone: (303) 320-0509

APPENDIX

1a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
______________________
ANZA TECHNOLOGY, INC.,
v.

Plaintiff-Appellant

MUSHKIN, INC., DBA ENHANCED NETWORK
SYSTEMS, INC.,
Defendant-Appellee
______________________
2019-1045
______________________
Appeal from the United States District Court for the
District of Colorado in No. 1:17-cv-03135-MEH,
Magistrate Judge Michael E. Hegarty.
______________________
Decided: August 16, 2019
______________________
COLBY BRIAN SPRINGER, Polsinelli LLP,
San Francisco, CA, argued for plaintiff-appellant.
Also represented by MIYA YUSA; MICHAEL
DULIN, Denver, CO; HANNAH THERESA YANG,
Kilpatrick Townsend & Stockton LLP, San
Francisco, CA.
D. SCOTT HEMINGWAY, Hemingway &
Hansen, LLP, Dallas, TX, argued for defendantappellee. Also represented by THOMAS S. RICE,
Senter Goldfarb & Rice LLC, Denver, CO.

2a
Before PROST, Chief Judge, NEWMAN and
BRYSON, Circuit Judges.
BRYSON, Circuit Judge.
Plaintiff Anza Technology, Inc., (“Anza”)
appeals from a decision of the United States District
Court for the District of Colorado granting a motion
by defendant Mushkin, Inc., dba Enhanced Network
Systems, Inc., (“Mushkin”) to dismiss Anza’s second
amended complaint. The dismissal followed from the
court’s finding that Anza’s claim of damages for
patent infringement was barred by the six-year
statute of limitations in the Patent Act, 35 U.S.C.
§286. That ruling was based in turn on the court’s
determination that the claims in Anza’s second
amended complaint did not relate back to the date of
Anza’s original complaint and were therefore timebarred. Because the district court’s application of the
relation back doctrine was overly restrictive, we
reverse in part, vacate in part, and remand for
further proceedings.
I
A
Anza filed this action on March 28, 2017, in
the United States District Court for the Eastern
District of California, alleging that Mushkin had
infringed claims 1, 14, and 16 of Anza’s U.S. Patent
No. 7,124,927 (“the ’927 patent”), in violation of 35
U.S.C. § 271(a) and (g). The ’927 patent, entitled
“Flip Chip Bonding Tool and Ball Placement
Capillary,” relates to “dissipative and insulative
ceramic flip chip bonding tools and capillaries for ball
placement for bonding electrical connections.” ’927
patent, col. 1, ll. 39–41.

3a
The specification of the ’927 patent discusses
two techniques for bonding electronic components,
such as semiconductor integrated circuit (“IC”) chips,
to substrates, circuit boards, or carriers. The two
techniques are referred to as “wire bonding” and “flip
chip bonding.” ’927 patent, col. 1, ll. 60–65. In wire
bonding, the chip is oriented face-up, so that there is
no direct electrical connection between the leads of
the chip and the bond pads on the substrate. A wire
is then used to connect the chip to the substrate. Id.
at col. 1, ll. 43–61. In flip chip bonding, the chip is
oriented face-down, which allows for a direct
electrical connection between the chip and the
substrate. The direct electrical connection is
facilitated by conductive solder balls that are
deposited on the chip; the solder balls provide the
conductive path from chip to substrate. Id. at col. 1,
ll. 61–65; col. 2, ll. 9–10; Fig. 3.
Under either technique, the bonding process
requires the use of bonding tools. The ’927 patent
explains that the problem with prior art bonding
tools was that “an electro-static discharge (ESD)
from the bonding tool or transient currents from the
machine [that uses the tool] can damage the very
circuit the tool is bonding.” Id. at col. 2, ll. 47–49.
According to the specification, “[c]ertain prior art
devices have a one-or-more volt emission when the
tip makes bonding contact. This could present a
problem, as a one-volt static discharge can . . . cause
the integrated circuit to fail.” Id. at col. 2, ll. 53–59.
To avoid damage to the electronic devices from
such an electrostatic discharge, the ’927 patent
recites a bonding tool tip for flip chip bonding that
“conducts electricity at a rate sufficient to prevent
charge buildup but not at so high a rate as to

4a
overload the device being bonded.” Id. at col. 2, line
67, through col. 3, line 2.
Claims 1, 14, and 16 of the ’927 patent, all
independent claims, recite a system, a component,
and a method, respectively. Claim 1 provides as
follows:
1. A flip chip bonding tool and ball placement
capillary system for connecting leads on
integrated circuit bonding pads, comprising a
dissipative material having a resistance low
enough to prevent a discharge of a charge to a
device being bonded and high enough to stop
current flow large enough to damage the
device being bonded.
Claim 14 recites:
14. An ESD-preventive device comprising:
a flip chip bonding tool and ball placement
capillary, comprising a dissipative material
and configured to come in contact with a
device being bonded, wherein a current
produced by static charge generated during
bonding is allowed to flow; wherein the
dissipative material has a resistance low
enough to prevent a discharge of charge to the
device being bonded and high enough to stop
all current flow to the device being bonded.
Claim 16 recites “[a] method of utilizing a flip chip
bonding tool . . . in a microelectronic assembly.” The
claimed method recites the use of a bonding machine
capable of being equipped with a flip chip bonding
tool, which has a tip comprising a dissipative
material having the same properties as recited in
claims 1 and 14.
B
On September 6, 2017, Anza filed its first
amended complaint, which joined Avant Technology,

5a
Inc., as a co-defendant.1 Thereafter, Mushkin filed a
motion to dismiss or to sever the claims against
Mushkin from those against Avant, and either to
stay the case against Mushkin or to transfer the case
to the District of Colorado. The California district
court severed Anza’s claims against Mushkin and
transferred the case against Mushkin to the District
of Colorado.
Following
the
transfer,
Anza
served
infringement contentions against Mushkin pursuant
to the District of Colorado’s Local Patent Rules 4 and
5. The infringement contentions accused Mushkin of
directly infringing claims 1 and 14, but did not refer
to claim 16. Noting in its infringement contentions
that discovery had not commenced and a formal
scheduling order had not been entered, Anza stated
that it reserved “the right to supplement these
contentions as appropriate based upon further
discovery and the schedule of this case, including but
not limited to assertions related to new claims and/or
patents as may be allowed through amendment of
the operative pleading.”
The parties then engaged in mediation. In the
course of the mediation, Mushkin provided Anza
fn 1 The first amended complaint alleged that Avant
was “the sole aggregator of all Mushkin-based
memory modules and board products . . . by virtue of
Avant having acquired certain assets of Defendant
Mushkin in accordance with an asset purchase
agreement dated April 1, 2012.” Because there is no
material difference between the original complaint
and the first amended complaint for purposes of the
issues in this case, we focus on the differences
between the original complaint and the second
amended complaint.

6a
with a declaration of George Stathakis, Mushkin’s
president, regarding the technology used by
Mushkin. The Stathakis declaration stated, inter
alia, that Mushkin “did not bond IC chips to boards
or modules.” Instead, according to the declaration,
“[t]he memory products purchased by Mushkin, Inc.
from suppliers were IC memory chips that were
already . . . bonded on printed circuit boards or
memory
module
boards.”
Additionally,
the
declaration stated that Mushkin’s supplier “does not
place or position solder ball connectors on the IC chip
for use in bonding the IC chip to a printed circuit
board or memory module board.”
The district court held a hearing to address
Mushkin’s motion to dismiss. In light of information
in the Stathakis declaration, Anza “agreed that its
present claims [were] no longer viable.” Based on
that concession, the district court granted Mushkin’s
motion. However, the court ruled that Anza would be
permitted to file an amended complaint and that
Mushkin would be allowed to file a motion to dismiss
that complaint.
C
Anza filed its second amended complaint on
June 8, 2018. In the second amended complaint,
Anza removed the infringement allegations
regarding the ’927 patent and alleged infringement
of two new patents: U.S. Patent Nos. 6,354,479 (“the
’479 patent”) and 6,651,864 (“the ’864 patent”). The
new complaint alleged that Mushkin had infringed
those patents under 35 U.S.C. § 271(g). Anza also
omitted ten of the sixteen products that had been
accused in the original complaint and added two new
products that had not previously been accused.
The ’479 and ’864 patents, entitled “Dissipative
Ceramic Bonding Tip” and “Dissipative Ceramic

7a
Bonding Tool Tip,” respectively, claim priority to the
same U.S. provisional application as the ’927 patent.
Like the ’927 patent, the ’479 and ’864 patents recite
the use of “dissipative ceramic bonding tips for
bonding electrical connections.” ’479 patent, col. 1, ll.
12–13; ’864 patent, col. 1, ll. 20–21. The patents offer
the same solution to the problem of electrostatic
discharge damage during the bonding process—
providing a bonding tool tip that conducts electricity
“at a rate sufficient to prevent charge buildup, but
not at so high a rate as to overload the device being
bonded.” ’479 patent, col. 2, ll. 4–6; ’864 patent, col. 2,
ll. 11–13. The ’479 and ’864 patents differ from the
’927 patent in that they are directed to bonding tool
tips for wire bonding, rather than for flip chip
bonding. In addition, in contrast to the system and
component claims of the ’927 patent, the asserted
claims of the ’479 and ’864 patents (claims 39 and 28,
respectively), are method claims. Claim 37 of the ’479
patent, from which asserted claim 39 depends,
recites as follows:
37. A method of using a bonding tip,
comprising:
bonding a device using a bonding tip
made with a dissipative material that has a
resistance low enough to prevent a discharge
of charge to said device and high enough to
avoid current flow large enough to damage
said device.
Similarly, independent claim 28 of the ’864 patent
recites:
28. A method of using an electrically
dissipative bonding tool tip, having a

8a
resistance in the range of 105 to 1012
ohms, comprising:
providing the electrically dissipative
bonding tool tip;
bonding a material to a device;
allowing an essentially smooth current
to dissipate to the device, the current being
low enough so as not to damage said device
being bonded and high enough to avoid a
build up of charge that could discharge to
the device being bonded and damage the
device being bonded.
D
Mushkin filed a motion to dismiss the second
amended complaint. It argued, inter alia, that the
new patent claims against Mushkin do not relate
back to the date of Anza’s original complaint. In
support of that argument, Mushkin relied on Rule
15(c)(1)(B) of the Federal Rules of Civil Procedure,
which provides: “An amendment to a pleading relates
back to the date of the original pleading when . . . the
amendment asserts a claim or defense that arose out
of the conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading.”
The district court granted Mushkin’s motion,
ruling that the new infringement claims did not
relate back to the date of the original complaint. The
court explained that new infringement claims relate
back to the date of the original complaint when the
claims involve the same parties, the same products,
and similar technology—i.e., when the claims are
“part and parcel” of the original complaint. The court
ruled that newly asserted claims of infringement do
not relate back if the new claims are not an integral
part of the claims in the original complaint and if

9a
proof of the new claims will not entail the same
evidence as proof of the original claims.
With respect to the patent claims asserted in
the original complaint as compared with those
asserted in the second amended complaint, the
district court found that “[a]lthough the claims
involve the same parties, they do not relate to
identical products and technology.” Comparing the
’864 and ’479 patents with the ’927 patent, the
district court found that the asserted claims of the
’864 and ’479 patents “protect a method of using a
wire bonding tool, while the ’927 claims involved a
flip chip bonding and solder ball placement tool.” The
district court acknowledged that the patent claims
have the “same purpose—bonding integrated circuit
chips to printed circuit boards while minimizing
electrostatic discharge.” But because it found that
“different processes and technologies are used to
achieve this purpose,” the district court held that the
patent claims are “not part and parcel of one
another.” As for the accused products, the court
noted that the second amended complaint added two
new accused products and omitted a number of

10a
accused products as compared with the original
complaint.2
The district court added that “proving
infringement of the initial and new claims would not
involve substantially the same evidence.” The district
court explained:
Proving the ’927 patent claims would
require evidence of the flip chip bonding
method and how the flip chip bonding and
ball placement tool was used in making
the
allegedly
infringing
products.
Conversely, proving the newly asserted
claims requires evidence of the wire
bonding process and how a wire bonding
tool tip was used to produce the allegedly
infringing products.
In particular, the court noted, the new claims would
entail
different
evidence
because
Anza’s
infringement contentions had dropped claim 16 of
the ’927 patent, which the district court considered to
be the claim from the first amended complaint that
2 The district court misspoke with regard to the
number of accused products omitted from the second
amended complaint. The court stated that the second
amended complaint omitted eleven of the products
that were accused in the original complaint, but in
fact the number of omitted products was ten.
Compare Second Amended Complaint at 13, Anza
Tech., Inc. v. Mushkin, Inc., No. 1:17-cv-03135-MEH
(D. Colo. June 8, 2018), ECF No. 75, with Complaint
at 6–7, Anza Tech., Inc. v. Mushkin, Inc., No. 1:17-cv03135-MEH (D. Colo. Mar. 28, 2017), ECF No. 1.

11a
was most similar to the newly asserted claims.
The district court then addressed the effect of
its rulings on the statute of limitations for patent
claims, 35 U.S.C. § 286, which bars recovery for any
infringement “committed more than six years prior
to the filing of the complaint or counterclaim for
infringement in the action.” Because Anza
acknowledged that Mushkin’s allegedly infringing
activity all took place more than six years before the
filing date of the second amended complaint, the
court held that the effect of ruling that the second
amended complaint did not relate back to the filing
date for the original complaint was that all the
asserted claims in the second amended complaint
were time-barred.
II
A
A preliminary question is whether Federal
Circuit law, rather than regional circuit law, governs
whether newly alleged claims in an amended
complaint relate back to the date of the original
complaint when the new claims are based on newly
asserted patents.
We have previously held that “[a] procedural
issue that is not itself a substantive patent law issue
is nonetheless governed by Federal Circuit law if the
issue pertains to patent law, if it bears an essential
relationship to matters committed to our exclusive
control by statute, or if it clearly implicates the
jurisprudential responsibilities of this court in a field
within its exclusive jurisdiction.” O2 Micro Int’l Ltd.
v. Monolithic Power Sys., Inc., 467 F.3d 1355, 1364
(Fed. Cir. 2006) (quoting Midwest Indus., Inc. v.
Karavan Trailers, Inc., 175 F.3d 1356, 1359 (Fed.
Cir. 1999)(en banc in relevant part)).

12a
One example of such a procedural issue is a
motion to sever in a patent case. We have held that
“motions to sever are governed by Federal Circuit
law because joinder in patent cases is based on an
analysis of the accused acts of infringement, and this
issue involves substantive issues unique to patent
law.” In re EMC Corp., 677 F.3d 1351, 1354 (Fed.
Cir. 2012). As in the case of motions to sever, the
determination of whether newly alleged infringement
claims relate back to the original complaint also
turns on “an analysis of the accused acts of
infringement.” Id. Therefore, we hold that this
determination is also governed by Federal Circuit
law.
B
The next question is what standard governs
this court’s review of a district court’s application of
the relation back doctrine.
Anza argues that this court should apply a de
novo standard of review. Anza bases that argument
on the fact that the district court dismissed the
second amended complaint after holding the relation
back doctrine inapplicable, and that dismissals of a
complaint under Fed. R. Civ. P. 12(b)(6) are subject
to de novo review.
The problem with Anza’s argument is that the
dismissal in this case was the necessary consequence
of the court’s determination that the relation back
doctrine does not apply, since without the benefit of
the relation back doctrine, it is clear that the statute
of limitations would bar all of Anza’s claims against
Mushkin. What Anza is challenging is not the
dismissal itself, but whether the district court
properly applied the relation back doctrine under
Rule 15(c). The standard of review that applies to a
dismissal under Rule 12(b)(6) therefore has nothing

13a
to do with the critical issue in this case, which is
whether the court properly determined not to apply
the relation back doctrine to the second amended
complaint. For that reason, Anza’s argument sheds
no light on what standard should be applied in
reviewing that issue.
Mushkin argues that the district court’s ruling
on the relation back issue should be reviewed under
the abuse of discretion standard. In arguing for that
standard, Mushkin relies on two decisions of this
court, but the cases Mushkin cites do not support its
argument. In the first case, Fromson v. Citiplate,
Inc., the court merely stated that it found “no
reversible error” in the district court’s conclusion
that the amended complaint related back to the date
of the original complaint. 886 F.2d 1300, 1304 (Fed.
Cir. 1989). The court did not specify what standard of
review it applied in reaching that conclusion. The
second case, Datascope Corp. v. SMEC, Inc., 962 F.2d
1043 (Fed. Cir. 1992), did not deal with the relation
back doctrine at all. The court in that case merely
held that the district court’s refusal to permit
amendment of the complaint was not an abuse of
discretion. Id. at 1047. While Datascope applied the
abuse of discretion standard to the question whether
the district court erred in denying a motion to amend
a complaint under Fed. R. Civ. P. 15(a), nothing in
Datascope speaks to the standard of review to be
applied to the separate question of whether an
amended pleading relates back to the date of the
original pleading under Fed. R. Civ. P. 15(c).
Mushkin’s suggestion that we review the
district court’s relation back ruling under an abuse of
discretion standard would be contrary to the law of
most of the other circuits, which have adopted a de
novo standard when reviewing decisions regarding

14a
whether an amended pleading relates back to the
date of the original pleading. See Glover v. FDIC, 698
F.3d 139, 144 (3d Cir. 2012); Robinson v. Clipse, 602
F.3d 605, 607 (4th Cir. 2010); Slayton v. Am. Express
Co., 460 F.3d 215, 227–28 (2d Cir. 2006); Young v.
Lepone, 305 F.3d 1, 14 (1st Cir. 2002); Miller v. Am.
Heavy Lift Shipping, 231 F.3d 242, 246–47 (6th Cir.
2000); Delgado-Brunet v. Clark, 93 F.3d 339, 342
(7th Cir. 1996); Slade v. U.S. Postal Serv., 875 F.2d
814, 815 (10th Cir. 1989); Percy v. S.F. Gen. Hosp.,
841 F.2d 975, 978 (9th Cir. 1988). Contra Powers v.
Graff, 148 F.3d 1223, 1226 (11th Cir. 1998)
(application of Rule 15(c) is reviewed for abuse of
discretion, while findings of fact necessary for
application of the rule are reviewed for clear error).
We adopt the majority rule. The rationale
underlying that rule, when it has been expressed, is
that the de novo standard of review applies because
determining whether the amended claim “arose out
of the conduct, transaction, or occurrence” set forth
in the original complaint requires the reviewing
court to apply the legal standard of Rule 15(c) “to a
given set of facts,” which is “a task we are no less
suited to perform than the district court.” Miller, 231
F.3d at 247; accord Percy, 841 F.2d at 978; Lundy v.
Adamar of N.J., Inc., 34 F.3d 1173, 1177 (3d Cir.
1994). In some instances, however, factual issues
may need to be addressed as part of the district
court’s analysis of the relation back issue. With
respect to any disputed facts that are material to the
relation back issue, we are not as well situated as the
district court to make the appropriate findings.
Therefore, in the event that such factual issues arise,
we would review any findings by the district court on
those issues for clear error, as we do in analogous
circumstances. See, e.g., Presidio Components, Inc. v.

15a
Am. Tech. Ceramics Corp., 875 F.3d 1369, 1375 (Fed.
Cir. 2017) (indefiniteness); Par Pharm., Inc. v. TWI
Pharm., Inc., 773 F.3d 1186, 1194 (Fed. Cir. 2014)
(obviousness); Alcon Research Ltd. v. Barr Labs.,
Inc., 745 F.3d 1180, 1188 (Fed. Cir. 2014)
(enablement); SanDisk Corp. v. STMicroelectronics,
Inc., 480 F.3d 1372, 1377 (Fed. Cir. 2007) (presence
of a case or controversy); Rambus Inc. v. Infineon
Techs. AG, 318 F.3d 1081, 1087–88 (Fed. Cir. 2003)
(attorney fee award); In re Emert, 124 F.3d 1458,
1460 (Fed. Cir. 1997) (double patenting).
C
The Supreme Court has interpreted the
relation back doctrine liberally, to apply if an
amended pleading “relate[s] to the same general
conduct, transaction and occurrence” as the original
pleading. Tiller v. Atl. Coast Line R.R. Co., 323 U.S.
574, 580–81 (1945) (holding, in a railroad negligence
case that even though the amended complaint
alleged a different theory of negligence, the new
charge related back to the original complaint because
“[t]he cause of action now, as it was in the beginning,
is the same—it is a suit to recover damages for the
alleged wrongful death of the deceased.”). That
liberal interpretation of the relation back rule
reflects the rationale of Rule 15(c), which is that “a
party who has been notified of litigation concerning a
particular occurrence has been given all the notice
that statutes of limitations were intended to
provide.” Baldwin Cty. Welcome Ctr. v. Brown, 466
U.S. 147, 149 n.3 (1984).
Our predecessor court, the Court of Claims,
embraced that liberal, notice-based interpretation of
Rule 15(c). See Snoqualmie Tribe of Indians v.
United States, 372 F.2d 951, 961 (Ct. Cl. 1967) (“A
restrictive view would limit application of the rule to

16a
minor pleading mistakes. We think modern practice
requires a more imaginative approach, and that
[Rule 15(c)] should be read liberally to permit an
amended pleading to relate back where there is
sufficient notice.”); see also Vann v. United States,
420 F.2d 968, 974 (Ct. Cl. 1970) (“The test for
determining whether the new matter in an amended
petition arose from the ‘conduct, transaction, or
occurrence’ first pleaded is whether the general fact
situation or the aggregate of the operative facts
underlying the claim for relief in the first petition
gave notice to the [accused party] of the new
matter.”); United States v. N. Paiute Nation, 393
F.2d 786, 790 (Ct. Cl. 1968) (“Sufficient notice to the
Government is the test . . . with our inquiry focusing
on the notice given by the general fact situation set
forth in the original pleading.”)(citations and footnote
omitted)).
Federal Circuit cases have applied a similar
approach to Rule 15(c). See Korody-Colyer Corp. v.
Gen. Motors Corp., 828 F.2d 1572, 1575 (Fed. Cir.
1987) (“Under Rule 15(c) . . . an amendment may
relate back when the earlier complaint gave
adequate notice of the new claim.”); see also Barron
Bancshares, Inc. v. United States, 366 F.3d 1360,
1369–70 (Fed. Cir. 2004); Intrepid v. Pollock, 907
F.2d 1125, 1130 (Fed. Cir. 1990).
The notice-based interpretation of Rule 15(c) is
consistent with the approach used under Rules 13(a)
and 20(a) of the Federal Rules of Civil Procedure.
Those rules, which share the “same transaction or
occurrence” standard used in Rule 15(c), have been
interpreted to require that counterclaims (in the case
of Rule 13(a)) or the claims of the plaintiffs to be
joined (in the case of Rule 20(a)) be logically related

17a
to the claims in the original complaint. See In re
EMC Corp., 677 F.3d at 1357–58.
The
“logical
relationship”
standard
contemplates a “liberal approach to the concept of
same transaction or occurrence.” 7 Charles Alan
Wright et al., Federal Practice & Procedure § 1653,
at 410–11 (3d ed. 2001). It asks whether the facts
underlying the alleged claims “share an aggregate of
operative facts.” In re EMC Corp., 677 F.3d at 1359.
For purposes of the logical relationship test, “all
logically related events entitling a person to institute
a legal action against another generally are regarded
as comprising a transaction or occurrence.” 7 Charles
Alan Wright et al., Federal Practice & Procedure §
1653, at 409.
In light of the similarity in the language used
in Rule 15(c) and Rules 13(a) and 20(a), cases
applying the logical relationship test in the patent
context are particularly instructive in applying the
relation back doctrine. Those cases suggest that
pertinent considerations bearing on whether claims
are logically related include the overlap of parties,
products or processes, time periods, licensing and
technology agreements, and product or process
development and manufacture. See In re EMC Corp.,
677 F.3d at 1359–60; Futurewei Techs., Inc. v. Acacia
Research Corp., 737 F.3d 704, 710 (Fed. Cir. 2013)
(“Here, the logical relationship is strong: the license
agreement gives rise to Huawei’s alter-ego claim, to
SmartPhone’s affirmative right to enforce the
patents in the Texas case, and to Huawei’s defense in
that case . . . .”); see also In re Rearden LLC, 841
F.3d 1327, 1332 (Fed. Cir. 2016) (noting that the
logical relationship test is one of three tests used to
determine whether the transaction-or-occurrence test
is met under Rule 13(a), and finding the

18a
counterclaim compulsory because, inter alia, “the
claims and counterclaims share a close, logical
relation: the ownership and rightful use of the
technology claimed and disclosed in the MOVA
patents”).
Several district courts have addressed the
issue of whether newly alleged claims, based on
separate patents, relate back to the date of the
original complaint. Most of those courts have
employed a similar analysis, asking whether the
newly asserted patents are “part and parcel” of the
original controversy. For example, in Halo
Electronics, Inc. v. Bel Fuse Inc., No. C-07-06222
RMW, 2008 WL 1991094, at *3 (N.D. Cal. May 5,
2008), the court found that the six Halo patents that
were the subjects of the new claims were not “part or
parcel” of the original complaint, which involved
another patent, because “the Halo patents involve[d]
different technologies and products.” On the other
hand, the court in PerfectVision Manufacturing, Inc.
v. PPC Broadband, Inc., 951 F. Supp. 2d 1083, 1093,
1093–94 (E.D. Ark. 2013), found that the amended
complaint related back to the date of the original
complaint, after considering whether the patents
cited in the two complaints involved “the same field
of art, the same fundamental science and technology
. . . [,] the same allegedly infringing devices, and, in
any damages analysis, the same pricing, sales, and
related market data.”
Accordingly, in determining whether newly
alleged claims, based on separate patents, relate
back to the date of the original complaint, we will
consider the overlap of parties, the overlap in the
accused products, the underlying science and
technology, time periods, and any additional factors
that might suggest a commonality or lack of

19a
commonality between the two sets of claims. At
bottom, however, the question remains whether the
general factual situation or the aggregate of
operative facts underlying the original claim for
relief gave notice to Mushkin of the nature of the
allegations it was being called upon to answer.
D
On appeal, Anza challenges the district court’s
conclusion that the second amended complaint did
not relate back to the date of the original complaint.
Anza argues that the ’864, ’479, and ’927 patents all
seek to solve the same problem—avoiding damage to
delicate devices as a result of ESD—and that the
three patents all employ the same solution to address
that problem—using dissipative ceramic tips on the
bonding tools.
Anza also argues that there is a significant
overlap of properties between the two sets of accused
Mushkin products. According to Anza, each accused
product in both the original complaint and the
second amended complaint requires the use of
certain techniques and methods to guard against
damaging ESD events, which include compliance
with standards that “involve[] the use of
manufacturing tools made of dissipative materials
having resistance ranges low enough to prevent a
discharge of a charge to an ESD sensitive device but
high enough to avoid current flows that may damage
the device.”
Mushkin disagrees. According to Mushkin, the
allegations in the second amended complaint are
significantly different from the initial “flip chip”
infringement allegations, for several reasons.
Mushkin first argues that the fact that the
second amended complaint withdrew all prior claims
of infringement under the “flip chip” ’927 patent and

20a
substituted claims from the two “wire bonding”
patents indicates that the two complaints address
entirely different bonding techniques. We disagree.
While the patents address different bonding
techniques, they all share the same underlying
technology. All three patents are focused on solving
the same problem by the same solution, using a
bonding tool tip made of a dissipative material
having a resistance low enough to prevent the
discharge of a charge to a device being bonded and
high enough to avoid current flow to that device. ’927
patent, col. 2, line 64, through col. 3, line 2; ’479
patent, col. 2, ll. 3–6; ’864 patent, col. 2, ll. 11–13.
Moreover, while the specifications of the ’479 and
’864 patents discuss only wire bonding, the asserted
claims of those patents are not limited to the wire
bonding technique. Both claim 39 of the ’479 patent
and claim 28 of the ’864 broadly recite methods of
using bonding tips more generally.
The use of bonding tool tips made of a
dissipative material is the basis for the charges of
infringement alleged in each of the complaints.
According to the complaints, industry-recognized
standards-setting organizations have set standards
for certain ESD-sensitive devices, including IC chips,
that require the use of manufacturing tools made of
dissipative materials. The complaints thus target
products assembled or manufactured in ways that
meet or exceed industry standards for reducing the
risk of damage to ESD-sensitive devices. This
technological overlap suggests that the aggregate of
operative facts underlying infringement under the
’927 patent in the original complaint gave notice of
the substance of the claims of infringement under
the ’479 and ’864 patents in the second amended
complaint.

21a
To be sure, the original complaint differs from
the second amended complaint in that the original
complaint was limited to products manufactured
using flip chip bonding. But the type of bonding
technique is of secondary importance compared with
the use of manufacturing tools made of dissipative
material. Contrary to the district court’s conclusion,
proving infringement would only require evidence
that certain bonding tools were used, not evidence as
to how those tools were used. That determination
would not be likely to result in a substantially
different evidentiary showing to prove infringement
of the claims asserted in the second amended
complaint.
Mushkin next argues that, before the filing of
the second amended complaint, Anza narrowed its
infringement claims in a way that distinguished its
claims from the claims set forth in its original
complaint. In what the district court characterized as
Anza’s “informal infringement contentions,” Anza did
not assert the previously pleaded 35 U.S.C. § 271(g)
statutory basis for infringement, and it did not assert
its previously pleaded allegations regarding “method
of use” claim 16 of the ’927 patent. The infringement
contentions thus asserted only system and
component claims 1 and 14, and alleged a theory of
direct infringement only under 35 U.S.C. § 271(a).
Subsequently, however, in the second amended
complaint, Anza asserted infringement of “method of
use” claims from the two new patents and alleged
infringement under 35 U.S.C. § 271(g).
In light of this sequence of events, Mushkin
argues that the second amended complaint changed
not only the type of claims asserted, but also the
statutory basis for infringement and the party
alleged to have conducted the accused bonding

22a
activity (a shift from Mushkin to an upstream
manufacturer). Those changes between the theory of
infringement set forth in the infringement
contentions and allegations in the second amended
complaint, according to Mushkin, show that there
were substantial differences between the new and
old claims.
Mushkin treats the infringement contentions
as irreversibly narrowing the scope of the original
complaint. In fact, however, Anza asserted that the
infringement contentions were “preliminary, and
based solely on public information.” Moreover, in the
infringement contentions, Anza reserved the right “to
supplement the[] contentions as appropriate based
upon further discovery and the schedule of th[e]
case.”
Apart from Anza’s reservation of the right to
supplement, the District of Colorado Local Patent
Rules
permit
amendments
to
infringement
contentions. According to Rule 16 of the Local Patent
Rules, amendments to the infringement contentions,
including the addition of accused products or
processes, are permissible upon a showing of good
cause, such as the discovery of previously
undiscovered information. D. Colo. Local Patent Rule
16(a)(3); see O2 Micro, 467 F.3d at 1366 (“If a local
patent rule required the final identification of
infringement and invalidity contentions to occur at
the outset of the case, shortly after the pleadings
were filed and well before the end of discovery, it
might well conflict with the spirit, if not the letter, of
the notice pleading and broad discovery regime
created by the Federal Rules.”). The discoveries made
as a result of the Stathakis declaration, including
that Mushkin does not bond IC chips to boards or
modules, but instead purchases pre-bonded chips

23a
from suppliers, would likely constitute good cause to
supplement Anza’s infringement contentions by
adding claim 16 and the section 271(g) theory of
infringement.
Setting aside Mushkin’s assertion that Anza’s
infringement contentions waived claim 16 and the
section 271(g) theory of infringement, Mushkin’s
arguments largely fall away. The original complaint
alleged infringement of “each of the limitations of
independent claims 1, 14, and 16 of the ’927 patent in
violation of 35 U.S.C. § 271(a) and (g).” Complaint at
8, Anza Tech., Inc. v. Mushkin, Inc., No. 1:17-cv03135-MEH (D. Colo. Mar. 28, 2017), ECF No. 75.
Similarly, the second amended complaint asserted
infringement of “method of use” claims of the ’479
and ’864 patents under 35 U.S.C. § 271(g). Second
Amended Complaint at 17, 20, Anza Tech., Inc. v.
Mushkin, Inc., No. 1:17-cv-03135-MEH (D. Colo.
June 8, 2018), ECF No. 75. Both complaints
therefore alleged infringement of “method of use”
claims under 35 U.S.C. § 271(g), such that the
allegations of infringement in both the old and new
claims would entail activities conducted by upstream
manufacturers. Accordingly, there is a substantial
overlap in the underlying facts alleged in each of the
complaints.
Mushkin’s next argument is that the time
frame when infringement liability was allegedly
incurred is significantly different in the second
amended complaint compared to the original
complaint. According to Mushkin, the second
amended complaint changed the relevant time period
from infringement that occurred within the six-year
period preceding March 2017 to infringement that
occurred between March 2011 and April 1, 2012. See
Appellee Br. 38. But Mushkin fails to explain how

24a
the second time period, which is wholly encompassed
within the first, can be regarded as distinctly
different from the first. There is no lack of notice and
no substantial prejudice to Mushkin from having to
defend against independent claims over a shorter
period than the period set forth in the original
complaint.
At several points, Mushkin argues that Anza’s
admission that the infringement allegations in the
original complaint were non-viable dooms its relation
back argument. Mushkin reasons that if the
infringement claims in the second amended
complaint are similar enough to the infringement
claims in the original complaint to relate back to the
date of the original complaint, the infringement
claims in the second amended complaint must also
be non-viable. Alternatively, Mushkin argues that if
the current claims are viable because they are not
the same as the original ones, the current claims
should not relate back to the date of the original
complaint.
That argument falls with its premise.
Amended claims do not have to be the same as the
original claims to relate back. Rather, the claims
must arise out of the same conduct, transaction, or
occurrence. In any event, the record contains no
explanation for the non-viability of the original
claims, so there is no basis for concluding that Anza’s
concession that the original claims were non-viable
means that the claims in the second amended
complaint must be so different from the original
claims that they cannot relate back to the date of the
original complaint.
Mushkin further contends that applying the
relation back doctrine in this case would allow
litigants to evade the statute of limitations by

25a
bootstrapping old claims onto new ones, thus
rendering the statute of limitations a nullity. To the
contrary, while the relation back doctrine alters the
starting point for the statute of limitations, that
starting point can never be earlier than the filing
date of the original complaint. And in order for the
relation back doctrine to apply at all, the allegations
of the amended complaint must be tethered to the
conduct, transactions, or occurrences underlying the
original claims.
Finally, Mushkin argues that “[w]ith the filing
of the Second Amended Complaint, two-thirds of the
accused products changed, including the addition of
two new accused products.” That characterization of
the change in the set of accused products is
misleading. In fact, the second amended complaint
omits ten of the original sixteen products from the
list of accused products. The omission of those
products has no prejudicial effect on Mushkin and
does not deprive Mushkin of notice of any new
allegations. The other six products—Redline,
Blackline, Radioactive, Silverline, Proline, and
Essentials—have been accused in all three
complaints. With regard to those six products, the
second amended complaint and the original
complaint would likely present closely related issues.
The same, however, is not true for the two
remaining products, the Ridgeback and Apple
products, which were added for the first time in the
second amendment complaint. Courts that have
addressed the issue of whether newly alleged claims,
based on separate patents, relate back to the date of
the original complaint, have regarded the presence of
newly accused products as a substantial factor
weighing against the application of the relation back
doctrine. See PerfectVision, 951 F. Supp. 2d at 1093–

26a
94; Halo Elecs., 2008 WL 1991094, at *3; see also
Mann Design Ltd. v. Bounce, Inc., 138 F. Supp. 2d
1174, 1179 (D. Minn. 2001) (finding no relation back,
in part because “[t]here are no allegations in the
Complaint or the Amended Complaint indicating
that the products accused of infringing the ’061
patent are the same as those which allegedly infringe
either the ’559 and ’053 patent.”). The rationale for
that rule is that it is improbable that allegations
regarding different products, involving different
patents, would have a common core of operative
facts. It is therefore an open question whether the
allegations regarding the two newly accused
products, which are alleged to have infringed the
latter two patents, are too far afield from the original
complaint to put Mushkin on notice of the allegations
against which it would be required to defend.
Resolution of that issue requires an analysis of
facts that are not before us and as to which the
district court is uniquely situated to rule. A remand
for further proceedings is therefore necessary so that
the district court can determine whether the
infringement claims as to those two products are
sufficiently similar to the infringement claims in the
original complaint to justify application of the
relation back doctrine to those products.
III
We hold that the claims in the second
amended complaint that relate to the six originally
accused
products—the
Redline,
Blackline,
Radioactive, Silverline, Proline, and Essentials
products—relate back to the date of the original
complaint under Rule 15(c). For those products,
section 286 does not wholly bar an award of
damages. The grant of the motion to dismiss as to
those products must therefore be reversed. For the

27a
products that were added for the first time in the
second amended complaint—the Ridgeback and
Apple products—we vacate the order of dismissal
and remand for the district court to determine, based
on a factual analysis in light of the legal standard set
forth above, whether the allegations regarding those
products should relate back to the filing date of the
original complaint.
REVERSED IN PART, VACATED IN PART, AND
REMANDED

28a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 17-cv-03135-MEH
ANZA TECHNOLOGIES, INC.,
Plaintiff,
v.
MUSHKIN, INC.,
Defendant.
_________________________________________________
ORDER
Michael E. Hegarty, United States Magistrate Judge.
Defendant Mushkin, Inc. seeks to dismiss
Plaintiff Anza Technologies, Inc.’s Second Amended
Complaint. I find that 35 U.S.C. § 286 bars Anza’s
damages for patent infringement, because the newly
asserted claims do not relate back to those in its
First Amended Complaint. Accordingly, I grant
Mushkin’s motion.
BACKGROUND
I. Facts
Anza makes the following relevant factual
allegations (as opposed to legal conclusions, bare
assertions, or merely conclusory allegations) in its
Second Amended Complaint, which I take as true for
my analysis under Fed. R. Civ. P. 12(b)(6). See
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).

29a
Anza produces and sells products that are
used in assembling electronics. Second Am. Compl. ¶
6, ECF No. 75. Relevant here, Anza manufactures
products that minimize electrostatic discharge when
connecting integrated circuit chips to other electrical
components, such as semiconductor dies and circuit
boards. See id. Mushkin was involved in the
acquisition and sale of computer memory products
until 2012, when it sold this portion of its business to
Avant Technologies, Inc. Id. ¶¶ 8–9, 12.
Integrated circuit chips are connected to
electrical components through various bonding
techniques. Id. ¶¶ 14–19. “Wire bonding is the
method of making interconnections with the
integrated circuit and other components using, for
example, gold or copper wire and the application of
ultra-sonics or heat.” Id. ¶ 17. The following is an
example of a wire bonded semi-conductor die:

Id. ¶ 13. To achieve a connection with minimal
electrostatic discharge, the wire is placed on the
circuit and bonded using a tool tip. Id. ¶ 18; U.S.
Patent No. 6,354,479, at 8 (issued Mar. 12, 2002)
(“’479 patent”), ECF No. 75-3. In 2000, Anza obtained
two patents over its wire bonding tool tip. ’479
Patent; U.S. Patent No. 6,651,864 (issued Nov. 25,

30a
2003) (“’864 patent”), ECF No. 75-4. The patents
include diagrams illustrating the wire bonding tool
and tip:

’479 patent, at 4, 5; ’864 patent, at.4.
“Flip chip bonding” is a different method for
connecting integrated circuit chips to electrical
components. Second Am. Compl. ¶ 19. This technique
deposits solder bumps on a substrate and then places
a “flipped” or “face-down” integrated circuit chip onto
the substrate so that the bumps directly connect the
circuit and substrate. Id. Thus, “[w]ire bonding
techniques use ‘face-up’ chips with a wire connection
to each pad. Bump or ‘flip chip’ microelectronic
assembly, on the other hand, is a direct electrical
connection
of
face-down—‘flipped’—electronic
components onto substrates . . . .” U.S. Patent No.
7,124,927, at 10 (issued Oct. 24, 2006) (“’927 patent”),
ECF No. 20-1.
When flip chip bonding, a tool must be used to
deposit solder balls and minimize electrostatic
discharge. Second Am. Compl. ¶ 20. In 2005, Anza
obtained a patent on its flip chip and solder ball
placement tool. ’927 patent. The following diagram,
which is included in Anza’s patent, represents the
flip chip process using its tool:

31a

Id. at 6.
Anza alleges that Mushkin acquired,
assembled, imported, or sold products with
integrated circuit chips that were manufactured with
wire and/or flip chip bonding tools. Second Am.
Compl. ¶ 10. Specifically, Anza contends the
following Mushkin products must have used its
patented bonding tools to comply with industry
standards for electrostatic discharge: “REDLINE,
BLACKLINE,
RIDGEBACK,
RADIOACTIVE,
SILVERLINE, PROLINE, ESSENTIALS, and
APPLE.” Id. ¶¶ 11, 37. Mushkin stopped
manufacturing and selling these products in 2012
when it sold its electronic memory component
business to Avant. Id. ¶¶ 8–9.
II. Procedural History
On March 28, 2018, Anza initiated this case
against Mushkin in the United States District Court
for the Eastern District of California. Compl., ECF
No. 1. In an Amended Complaint filed on September
6, 2017, Anza asserted patent infringement claims
against Mushkin and Avant. First Am. Compl. ¶¶
33–37, ECF No. 20. According to Anza, Mushkin and
Avant infringed claims one, fourteen, and sixteen of
the ’927 patent when they manufactured or sold
products with integrated circuit chips that had been
flip chip bonded to circuit boards with tips that

32a
reduce electrostatic discharge. Id. ¶ 37. Claims one
and fourteen protect Anza’s “flip chip bonding tool
and ball placement capillary system.” ’927 patent, at
12–13. Claim sixteen protects “[a] method of utilizing
a flip chip bonding tool and ball placement capillary
in a microelectric assembly . . . .” Id.
On December 20, 2017, the Honorable William
B. Shubb severed the claims against Mushkin and
Avant and transferred the Mushkin case to this
District. ECF No. 40. While pursuing informal
resolution of this case, Anza learned that its claims
based on the ’927 patent were no longer viable. See
Tr. of Mot. Hearing 12:22–13:3, ECF No. 74. Thus, it
dismissed those claims and filed a Second Amended
Complaint, which asserts new claims based on
different patents. Id.; Second Am. Compl. ¶¶ 45–62,
ECF No. 75. Specifically, Anza alleges Mushkin
infringed claim thirty-nine of the ’479 patent and
claim twenty-eight of the ’864 patent by
manufacturing, importing, or selling products that
had been wire or flip chip bonded. Id. Both of these
claims protect methods of using the patented wire
bonding tool tip. ’479 patent, at 11; ’864 patent, at
25.
Mushkin filed the present Motion to Dismiss
on July 6, 2018. ECF No. 78. Mushkin first argues
that Anza fails to state a violation of 35 U.S.C. §
271(g), because a “method of use” claim is not viable
under that statute. Id. at 13–15. Next, Mushkin
contends 35 U.S.C. § 286’s six-year limitation on
patent infringement damages bars Anza’s claims. Id.
at 15–21. Further, Mushkin argues the newly
asserted claims do not relate back to those in Anza’s
original or amended complaints. Id. Alternatively,
Mushkin asks me to convert its motion to one for
summary judgment and find that it did not infringe

33a
the ’479 or ’864 patents. Id. at 22–23. Anza filed its
response brief on July 27, 2018. Resp. to Mot. to
Dismiss, ECF No. 79. Mushkin subsequently
submitted its reply. Reply in Supp. of Mot. to
Dismiss, ECF No. 80.
LEGAL STANDARDS
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). Plausibility, in the context of a motion to
dismiss, means that the plaintiff pleaded facts which
allow “the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Id. Twombly requires a two prong analysis.
First, a court must identify “the allegations in the
complaint that are not entitled to the assumption of
truth,” that is, those allegations which are legal
conclusions, bare assertions, or merely conclusory.
Id. at 679–80. Second, the Court must consider the
factual allegations “to determine if they plausibly
suggest an entitlement to relief.” Id. at 681. If the
allegations state a plausible claim for relief, such
claim survives the motion to dismiss. Id. at 680.
Plausibility refers “to the scope of the
allegations in a complaint: if they are so general that
they encompass a wide swath of conduct, much of it
innocent, then the plaintiffs ‘have not nudged their
claims across the line from conceivable to plausible.’”
Khalik v. United Air Lines, 671 F.3d 1188, 1191
(10th Cir. 2012) (quoting Robbins v. Oklahoma, 519
F.3d 1242, 1247 (10th Cir. 2008)). “The nature and
specificity of the allegations required to state a
plausible claim will vary based on context.” Kan.
Penn Gaming, LLC v. Collins, 656 F.3d 1210, 1215

34a
(10th Cir. 2011). Thus, while the Rule 12(b)(6)
standard does not require that a plaintiff establish a
prima facie case in a complaint, the elements of each
alleged cause of action may help to determine
whether the plaintiff has set forth a plausible claim.
Khalik, 671 F.3d at 1191.
ANALYSIS
Mushkin argues that 35 U.S.C. § 286 bars
Anza’s newly asserted claims, because Anza’s
damages predate the Second Amended Complaint by
more than six years. Mot. to Dismiss 9–17, ECF No.
78. Furthermore, Mushkin contends the new claims
are not sufficiently similar to those based on the ’927
patent to relate back. Id. In response, Anza does not
dispute that its damages accrued more than six
years ago. Resp. to Mot. to Dismiss 13, ECF No. 79.
However, Anza contends the new claims relate back,
because they involve the same end products and
electrical components. Id. at 8–13. Additionally,
Anza believes proving infringement will require
similar evidence. Id.
Pursuant to § 286, “no recovery shall be had
for any infringement committed more than six years
prior to the filing of the complaint or counterclaim
for infringement in the action.” 35 U.S.C. § 286.
Although the Federal Circuit has not addressed
Federal Rule of Civil Procedure 15(c)’s application to
patent cases, district courts generally allow damages
on claims filed outside of the six year period if they
relate back to timely asserted causes of action. See,
e.g., Barnes & Noble, Inc. v. LSI Corp., 823 F. Supp.
2d 980, 988–89 (N.D. Cal. 2011). Pursuant to Rule
15(c)(1)(B), new claims relate back when “the
amendment asserts a claim or defense that arose out
of the conduct, transaction, or occurrence set out—or
attempted to be set out—in the original pleading.”

35a
District courts have taken various approaches
when applying Rule 15(c) to claims based on
separate patents. Some courts and commentators
have stated that an infringement claim involving a
different patent does not relate back as a matter of
law. See Illinois Tool Works, Inc. v. Foster Grant Co.,
Inc., 395 F. Supp. 234, 250–51 (N.D. Ill. 1974) (“An
alleged infringement of one patent is not the ‘same
conduct, transaction or occurrence’ as the alleged
infringement of another patent.”); 6A Charles Alan
Wright & Arthur R. Miller, Fed. Prac. & Proc. § 1497
(3d ed. 2018) (“[A]mendments alleging . . . the
infringement of a different patent . . . may be subject
to the defense of statute of limitations because of a
failure to meet the transaction standard.”). However,
the majority of courts analyze whether the newly
asserted patent is “part and parcel” of the original
controversy. See Mann Design, Ltd. v. Bounce, Inc.,
138 F. Supp. 2d 1174, 1178–79 (D. Minn. 2001);
PerfectVision Mfg., Inc. v. PPC Broadband, Inc., 951
F. Supp. 2d 1083, 1093 (W.D. Ark. 2013). Courts
have found claims part and parcel when the original
action involves the same parties, same products, and
similar technology. See, e.g., Ramsey Grp., Inc. v.
EGS Int’l, Inc., 208 F.R.D. 559, 563 (W.D.N.C. 2002)
(quoting In re Medrad, Inc., 215 F.3d 1341 (Fed. Cir.
1999) (unpublished table disposition)). However,
when the newly asserted claims are not an integral
part of those in the original complaint and will not
involve the same evidence, § 286 bars damages for
the new cause of action. See Metrologic Instruments,
Inc. v. PSC, Inc., No. 99-4876 (JBS), 2004 WL
2851955, at *19 (D.N.J. Dec. 13, 2004); see also
Mann Design, Ltd., 138 F. Supp. 2d at 1179.
Although a close call, I find that the claims
based on the ’479 and ’864 patents are not part and

36a
parcel of those asserted under the ’927 patent. I first
provide detailed background on the three patents.
Then, I discuss why the claims are not sufficiently
similar to relate back.
Anza applied for the ’479 patent on February
25, 2000. ’479 patent, at 2, ECF No. 75-3. The
abstract describes the invention as, “[d]issipative
ceramic bonding tips for wire bonding electrical
connections to bonding pads on integrated circuit
chips and packages.” Id. In discussing the purpose of
the bonding tips, the abstract states, “to avoid
damaging delicate electronic devices by any
electrostatic discharge, an ultrasonic bonding wedge
tool tip must conduct electricity at a rate sufficient to
prevent charge buildup, but not at so high a rate as
to overload the device being bonded.” Id. The claim
giving rise to the present lawsuit—claim thirtynine—protects “[a] method of using a bonding tip,
comprising: bonding a device using a bonding tip
made with a dissipative material that has a
resistance low enough to prevent a discharge of
charge to said device and high enough to avoid
current flow large enough to damage said device.” Id.
at 11 (the language of claim thirty-seven to which
claim thirty-nine refers).
In December 2001, Anza applied for the ’864
patent, ECF No. 75-4. The abstract for this patent
states, “Methods for making and using dissipative
ceramic bonding tool tips for wire bonding electrical
connections to bonding pads on integrated circuit
chips and packages.” ’864 patent, at 2. Claim
twenty-eight protects, “[a] method of using an
electrically dissipative bonding tool tip, having a
resistance in the range of 105 to 1012 ohms,
comprising: providing the electrically dissipative
bonding tool tip; bonding a material to a device;

37a
allowing an essentially smooth current to dissipate
to the device . . . .” Id. at 25.
On April 15, 2005, Anza applied for the ’927
patent, ECF No. 20-1. Unlike the ’479 and ’864
patents, this patent does not involve a wire bonding
device. Instead, it protects a tool used while flip chip
bonding. Id. at 2. The abstract states, “[a] flip chip
bonding tool and ball placement capillary system
comprising a dissipative material with a resistance
low enough to prevent a discharge of a charge to a
device being bonded and high enough to avoid
current flow to the device being bonded . . . .” Id.
Claims one and fourteen protect the flip chip bonding
and ball placement tool, while claim sixteen protects,
A method of utilizing a flip chip bonding tool
and
ball
placement
capillary
in
a
microelectronic
assembly,
comprising:
providing a bonding machine capable of being
equipped with a flip chip bonding tool and ball
placement capillary having a tip comprised of
a dissipative material, the dissipative material
having a resistance low enough to prevent a
discharge of a charge to a device being bonded
and high enough to stop all current flow to the
device being bonded.
Id. at 12–13.
Analyzing the factors courts consider when
determining whether patent claims relate back, I
conclude the newly asserted claims are not part and
parcel of the original cause of action. Although the
claims involve the same parties, they do not relate to
identical products and technology. Regarding the
products underlying the patents, the ’864 and ’479
claims protect a method of using a wire bonding tool,
while the ’927 claim involved a flip chip bonding and
solder ball placement tool. When the ’864 and ’479

38a
patents were issued, the flip chip bonding tool was
not even invented. Additionally, the products
produced with the patented processes are not
identical. Although Anza’s Second Amended
Complaint includes six of the infringing products
listed in the First Amended Complaint, the Second
Amended Complaint adds two new products and
omits eleven. Compare First Am. Compl. ¶ 32, ECF
No. 20, with Second Am. Compl. ¶ 37, ECF No. 75.
Thus, this case is different from PerfectVision
Manufacturing, Inc., in which the plaintiff alleged
that a single device for connecting coaxial cables
infringed two separate patents. 951 F. Supp. 2d at
1093–94; see also Intel Corp. v. Amberwave Sys.
Corp., 233 F.R.D. 416, 418 (D. Del. 2005) (finding
that two patent claims were part and parcel, in part
because the claims involved “the same allegedly
infringing devices”).
The two patents also involve different
technologies and processes for bonding integrated
circuit chips to electrical components. The ’927
patent explains this distinction when it states,
“[w]ire bonding techniques use ‘face-up’ chips with a
wire connection to each pad. Bump or ‘flip chip’
microelectronic assembly, on the other hand, is a
direct electrical connection of face-down—‘flipped’—
electronic components onto substrates, circuit
boards, or carriers by means of conductive bumps on
a chip bond pad.” ’927 patent, at 10. In Hooker
Chemicals & Plastics Corp. v. Diamond Shamrock
Corp., the court found two patents to be part and
parcel, because both arose from a common
application and “[b]oth concern the same [membrane
cell] technology.” 87 F.R.D. 398, 403 (W.D.N.Y.
1980). Here, the ’927 patent involves flip-chip
bonding technology, while the ’864 and ’479 patents

39a
involve wire bonding. To be sure, the two devices
have the same purpose—bonding integrated circuit
chips to printed circuit boards while minimizing
electrostatic discharge. However, because different
processes and technologies are used to achieve this
purpose, I find they are not part and parcel of one
another.
Furthermore, contrary to Anza’s contention,
proving infringement of the initial and new claims
would not involve substantially the same evidence.
Because the patents involve different processes,
different evidence is required. Proving the ’927
patent claims would require evidence of the flip chip
bonding method and how the flip chip bonding and
ball placement tool was used in making the allegedly
infringing products. Conversely, proving the newly
asserted claims requires evidence of the wire bonding
process and how a wire bonding tool tip was used to
produce the allegedly infringing products.
My finding is supported by the court’s decision
in Metrologic Instruments, Inc., 2004 WL 2851955.
In that case, the court considered whether a parent
patent (i.e., a patent that was issued prior to related
patents) could be added to a suit in which the
plaintiff already alleged infringement of the
continuation patents. Id. at *19–20. In finding that
the newly asserted parent patent did not relate back,
the court stated:
[T]his is not a situation in which the
amendment concerned the inclusion of a newly
issued continuation patent of the patent-insuit. Instead, the ’342 patent is the parent
application to the three later continuations—
the ’027 patent, the ’717 patent, and the ’049
patent—all three of which were included in
the original Complaint. While it may be said

40a
that a Complaint including allegations of
infringement of the parent patent (the ’342)
would provide sufficient notice of infringement
of the continuations (the ’027, ’717, and ’049
patents) as well, the reverse does not
necessarily hold true.
Id. at *20. Similarly, although the ’947 patent is a
partial continuance of the ’864 and ’479 patents, it
does not follow that the ’947 claims gave Mushkin
notice of potential claims arising under the older ’864
and ’479 patents. If Anza had first asserted claims
based on the older wire bonding technology and then
attempted to add a cause of action for infringement
of the flip chip bonding tool, the claim may have
related back. However, the reverse “does not
necessarily hold true.” Id.
Anza contends the patents are part and parcel,
because the claims in the ’864 and ’479 patents could
incorporate flip chip bonding. Resp. to Mot. to
dismiss 10. At first glance this appears to be a viable
argument, since claim thirty-nine of the ’479 patent
and claim twenty-eight of the ’864 patent do not
specifically mention wire bonding. However, further
review of these patents reveals they concern only
wire bonding. Indeed, the abstracts specifically state
that the patents protect tips used while “wire
bonding electrical connections.” ’479 patent, at 2;
’864 patent, at 2. Furthermore, as Mushkin states
(and Anza does not rebut) the flip chip tool had not
been invented when these patents were issued. See
Mot. to Dismiss 11. Thus, it is clear that the claims
at issue protect only the use of “an electrically
dissipative [wire] bonding tool tip.” ’479 patent, at
11; ’864 patent, at 25.
The upshot is that Anza’s First Amended
Complaint would not have put Mushkin on notice

41a
that Anza would bring claims based on different
patents involving an older process and technology.
In other words, informing Mushkin that products it
manufactured or sold impermissibly used a flip chip
bonding tool would not give it notice that some of
those same products (and some new products)
impermissibly used a wire bonding tool tip. This is
especially true, given that Anza’s informal
infringement contentions dropped claim sixteen of
the ’947 Patent, which was the most similar claim to
those presently asserted. Tr. of Mot. Hearing 12:10–
:12, ECF No. 74. Accordingly, the claims do not share
sufficient similarities to relate back. Because the
latest infringement Anza alleges occurred more than
six years before it filed the Second Amended
Complaint, § 286 bars all damages for the newly
asserted patent infringement claims.1
CONCLUSION
In sum, the claims Anza asserts in its Second
Amended Complaint are not sufficiently similar to its
prior claims to relate back. Because Anza
acknowledges that Mushkin’s allegedly infringing
conduct took place more than six years ago, § 286
precludes damages for Anza’s claims. Accordingly,
Mushkin’s Motion to Dismiss Anza’s Second
Amended Complaint [filed July 6, 2018; ECF No. 78]
is granted. The Clerk of the Court is directed to
close this case.

42a
Entered and dated at Denver, Colorado, this 28th
day of August, 2018.
BY THE COURT:
Michael E. Hegarty
United States Magistrate Judge

fn. 1 Because I find this statute precludes Anza’s
new patent claims, I need not analyze Mushkin’s
other arguments for dismissal.

